<html>
<title> - [H.A.S.C. No. 112-113]ASSESSING MOBILITY AIRLIFT CAPABILITIES AND OPERATIONAL RISKS UNDER THE REVISED 2012 DEFENSE STRATEGY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-113]

                       ASSESSING MOBILITY AIRLIFT

                   CAPABILITIES AND OPERATIONAL RISKS

                     UNDER THE REVISED 2012 DEFENSE

                                STRATEGY

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 7, 2012



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  _____

                      U.S. GOVERNMENT PRINTING OFFICE

  73-439 PDF               WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512051a35160006011d1019055b161a185b">[email&#160;protected]</a>  









             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                    W. TODD AKIN, Missouri, Chairman
DUNCAN HUNTER, California            MIKE McINTYRE, North Carolina
MIKE COFFMAN, Colorado               SUSAN A. DAVIS, California
SCOTT RIGELL, Virginia               JAMES R. LANGEVIN, Rhode Island
TIM GRIFFIN, Arkansas                RICK LARSEN, Washington
STEVEN PALAZZO, Mississippi          JOE COURTNEY, Connecticut
TODD YOUNG, Indiana                  CHELLIE PINGREE, Maine
ROSCOE G. BARTLETT, Maryland         MARK S. CRITZ, Pennsylvania
J. RANDY FORBES, Virginia            HANK JOHNSON, Georgia
ROB WITTMAN, Virginia                BETTY SUTTON, Ohio
TODD RUSSELL PLATTS, Pennsylvania
                 Heath Bope, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                   Emily Waterlander, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, March 7, 2012, Assessing Mobility Airlift Capabilities 
  and Operational Risks Under the Revised 2012 Defense Strategy..     1

Appendix:

Wednesday, March 7, 2012.........................................    29
                              ----------                              

                        WEDNESDAY, MARCH 7, 2012
ASSESSING MOBILITY AIRLIFT CAPABILITIES AND OPERATIONAL RISKS UNDER THE 
                     REVISED 2012 DEFENSE STRATEGY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Davis, Hon. Susan A., a Representative from California, 
  Subcommittee on Seapower and Projection Forces.................     2

                               WITNESSES

Barclay, MG James O., USA, Assistant Deputy Chief of Staff.......     6
Bogdan, Maj Gen Christopher, USAF, Director, KC-46 Tanker 
  Mobilization Directorate.......................................     8
Johns, Gen Raymond E., USAF, Commander, Air Mobility Command.....     3
Russell, Cary, Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     6
Wyatt, Lt Gen Harry M., USAF, Director, Air National Guard.......     4

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    33
    Barclay, MG James O..........................................    59
    Johns, Gen Raymond E.........................................    36
    McIntyre, Hon. Mike..........................................    35
    Russell, Cary................................................    65
    Wyatt, Lt Gen Harry M........................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Griffin..................................................    81
    Mr. Langevin.................................................    81
    Mr. Young....................................................    81

Questions Submitted by Members Post Hearing:

    Mr. Akin.....................................................    85
    Mr. Bartlett.................................................    95
    Mr. Griffin..................................................    95

 
ASSESSING MOBILITY AIRLIFT CAPABILITIES AND OPERATIONAL RISKS UNDER THE 
                     REVISED 2012 DEFENSE STRATEGY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Wednesday, March 7, 2012.
    The subcommittee met, pursuant to call, at 3:37 p.m. in 
room 2118, Rayburn House Office Building, Hon. W. Todd Akin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM 
  MISSOURI, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Akin. I am going to bring the hearing to order here. We 
are going to have some members showing up in a few minutes.
    And before I read an opening statement, if it is all right 
with you, I will start with a prayer.
    Father, we thank you for each day you give us. We thank you 
for the pretty day outside. We thank you for the many people 
who serve our country. We ask you please to watch over our 
words and our thoughts at this time in this hearing. Please 
watch over the people who serve us overseas.
    And I ask this in Jesus' name.
    Amen.
    Thank you, gentlemen.
    I would like to welcome everyone here to the first hearing 
of the second session of the 112th Congress for the Seapower 
and Projection Forces Subcommittee. I look forward to 
continuing our bipartisan efforts that have been a longstanding 
tradition in this subcommittee in providing our service men and 
women with the best equipment possible in this most challenging 
budget environment. That is an understatement.
    Testifying before us are representatives from the Air 
Force, Army and Government Accountability Offices. We have 
General Ray Johns, Commander of Air Mobility; Lieutenant 
General Bud Wyatt, Director of Air National Guard; Major 
General Jim Barclay, Deputy to the Office of the Army Deputy 
Chief of Staff; and Major General Chris Bogdan, the KC-46 
Tanker Program Manager; and Mr. Cary Russell, Acting Director 
of GAO's [Government Accountability Office] Defense 
Capabilities and Management Directorate.
    Gentlemen, welcome and thank you for the many years of 
service providing leadership that enables our military to be 
the finest in the world. Today, we are here to assess the 
increased risk incurred within the airlift and tanker mobility 
portfolios of the Army and Air Force as a result of the 
President's April, 2011 initiative calling for continued 
reductions to the defense budget.
    As a result, the fiscal year 2013 budget request for DOD 
[Department of Defense] is $45.3 billion or 8 percent below the 
planned fiscal year 2013 budget submitted in last year's fiscal 
year 2012 request. The end-state consequences resulted in 
divestment of 150 aircraft from air mobility programs and will 
even force the Air Force to fly brand-new C-27 joint cargo 
aircraft directly from the production line to the ``boneyard'' 
in Arizona this year.
    Furthermore, this new budget-driven defense strategy 
negates the 2010 quadrennial defense review scenarios developed 
just 2 years ago that were used to right-size airlift programs 
in anticipation of the threats and contingencies that the U.S. 
Government should be prepared for in the 2016-and-beyond time 
period.
    Nothing to date has occurred over the last 2 years 
indicating that the world has gotten safer or that the 
foreseeable operations tempo of our military will significantly 
decrease to justify such a large reduction of force structure.
    A smaller force structure operating under the same 
operational tempo only leads to our military wearing out their 
equipment quicker than planned. Just ask the Navy. They have 
285 ships today, but currently operate them as if they had a 
fleet of 350.
    The next threat around the corner that is certainly 
predictable is budget sequestration. The $487 billion in cuts 
imposed upon the defense budget already concern me and I 
certainly do not support the devastating effect that 
sequestration will have on national security come this January. 
It makes no sense to me why some believe that penalizing 
defense, which is only 20 percent of our discretionary budget, 
an additional $500 billion to $600 billion through 
sequestration, is acceptable policy.
    The only outcomes from such a mindset is a guarantee that 
we will move toward becoming a regional power and open a global 
void that another rising power will most certainly fill. I ask 
our witnesses to please help the subcommittee understand what 
impact sequestration will have on your respective areas of the 
DOD budget.
    Gentlemen, I thank you again for being with us today. We 
look forward to your testimony.
    And I now recognize the ranking subcommittee member, who 
is--okay, Mrs. Davis are you going to stand in? Good. Thank 
you.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 33.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
   CALIFORNIA, SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

    Mrs. Davis. Thank you, Mr. Chairman. I am happy to express 
these remarks on behalf of Congressman Mike McIntyre, ranking 
chair of the subcommittee.
    I would like to thank all the witnesses for appearing here 
today and for your service to our country.
    Given the number of recently announced reductions, it is 
important for us to have a clear understanding of what the 
airlift requirements are to meet the new defense strategy. With 
the retirement of all 27 C-5As, the elimination of the entire 
C-27J fleet, and the retirement of 65 C-130s, I am concerned 
about whether or not we have the mobility resources required to 
meet current and future global demands.
    While there will be a drawdown in the overall end-strength 
of the ground forces in the coming years, there will also be a 
shift of resources to the Asia-Pacific area of responsibility, 
and that will require increased support. My understanding is 
that many of these shifts will begin in the coming years, while 
our commitments to the current conflict in Afghanistan remain.
    I am interested in hearing how the strategic shift, 
combined with our current commitments, will impact mobility 
demands. I am anxious to hear from the witnesses about the 
decision to terminate the C-27J program and retire all the 
current aircraft we have already bought and paid for. A 
clarification in the assumptions that were made in this process 
and how the Air Force plans to fulfill this requirement would 
be helpful to the subcommittee.
    With regard to the KC-46 tanker-replacement program, I am 
encouraged to see signs that the program is progressing in a 
positive direction. Recent briefings to committee staff shows 
both low risk in the areas of cost and technical performance 
and moderate risk in scheduled performance. I know that the KC-
46 program office is working diligently to keep the program on 
a stable track and avoid any design or contract changes that 
could potentially delay delivery and allow for increased costs.
    Once again, thank you very much to the witnesses for 
appearing here today, and we all look forward to your 
testimony.
    Thank you.
    [The prepared statement of Mr. McIntyre can be found in the 
Appendix on page 35.]
    Mr. Akin. Thank you.
    Eloquent; good job.
    Okay, we are going to have opening statements.
    First, General Johns, go ahead. I think, what are we 
talking about, maybe 5 minutes or so? Is that what we typically 
do? About 5 minutes or so; and then going to be Lieutenant 
General Wyatt, Major General Barclay, and then Mr. Russell.
    Okay? Good.
    Thank you, General.

    STATEMENT OF GEN RAYMOND E. JOHNS, USAF, COMMANDER, AIR 
                        MOBILITY COMMAND

    General Johns. Mr. Chairman, I ask that the full written 
statement be placed in the record.
    Chairman Akin, Acting Ranking Member Mrs. Davis, and 
distinguished members of the subcommittee, thank you for the 
opportunity to speak to you about our Nation's air mobility 
capabilities.
    I am honored to be joined by the distinguished members of 
this panel, and particularly pleased that General Wyatt is 
here. Air Mobility Command is the 135,000 airmen from Active, 
Guard, and Reserve. We could not do our mission without the 
full support and commitment of the Air National Guard and the 
Air Force Reserve.
    We in the mobility forces answer the call so others may 
prevail across the spectrum, from humanitarian to combat 
operations. In March of last year, we moved 13,000 military and 
civilian personnel to Japan to support tsunami relief. We 
evacuated thousands of DOD dependents back to the U.S. over 
radiation concerns and provided 79 percent of the refueling 
required for Libya operations and continued to support the 
ground forces in Iraq and Afghanistan with air, land, and air-
drop missions. It was truly our version of March Madness.
    AMC [Air Mobility Command] is a force provider. We are the 
air component of United States Transportation Command, so we do 
not determine the requirements, but are responsible for making 
sure the combatant commanders' requirements can be met.
    Our Nation's air-mobility fleet is a national treasure that 
truly sets us apart as a world power. We take the stewardship 
of this fleet very seriously. We want to ensure our Nation's 
leaders that follow generations from today will have the same 
strategic options we now enjoy.
    We can project combat power anywhere in the world when we 
match an air-refueling tanker with a strike platform. We can 
resupply a forward-operating base cut off from the ground using 
our airlifters for air drop. We can return a wounded soldier to 
critical care back in the United States within hours of being 
injured.
    We are also keenly aware of the fiscal realities we face. 
This committee, like few others, understands the impact of a 
$487 billion reduction of funding over the next 10 years. Air 
mobility is not immune from this. Let me assure you today that 
very thoughtful analysis and deliberation went into the fiscal 
year 2013 President's budget request. No less than four 
different studies performed by various stakeholders and OSD 
[Office of the Secretary of Defense] and the joint staff and 
the air staff informed the air mobility portion of the 
President's budget request.
    We will be smaller, but at the same time, more modern and 
more agile than we have ever been. I can assure the committee 
that we can support the 2012 defense strategic guidance.
    AMC supports the President's fiscal year 2013 budget 
request. We truly appreciate the impact, though, of the force 
structure changes that it will have on your communities, and 
they are our communities also. We searched for total force 
solutions, and with the help of General Wyatt and many others, 
we believe we are best poised to go into the future.
    Again, we thank you for letting us discuss air mobility 
today. We look forward to your questions, and a special thank 
you to this committee for your enduring support of what we hold 
as a national treasure, our airmen and this mission.
    [The prepared statement of General Johns can be found in 
the Appendix on page 36.]
    Mr. Akin. Thank you, General.
    And General Wyatt.

    STATEMENT OF LT GEN HARRY M. WYATT, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Chairman Akin and Ranking Member McIntyre 
and members of the subcommittee, I am honored to appear before 
you today representing the over 106,000 dedicated men and women 
of our Nation's Air National Guard.
    As the director of the Air National Guard, my job is to 
ensure Guard airmen have the resources and training necessary 
to accomplish their assigned missions and task. But as a U.S. 
Air Force officer and an American citizen, I want an Air Force 
which has both the capability and capacity to meet future 
national security challenges, and I want that Air Force at the 
lowest possible cost.
    There have been a number of airlift requirement studies in 
the last two years, as I know you are aware. I doubt that any 
of them have captured the full requirements to meeting overseas 
contingency operations, direct support to the Army, and 
domestic emergencies. It is not for a lack of trying. We simply 
do not fully understand all of the airlift requirements.
    The Mobility Capabilities Requirements Study 2016, or MCRS 
2016, is the most comprehensive study, but there is an 
assumption that ``ground transportation provides the best rate 
of closure.'' I question whether that stands up to historical 
fact or exercise experiences.
    Hurricanes, floods, blizzards, and earthquakes block access 
roads and damage bridges, making ground transportation very 
difficult. As demonstrated in many real-world experiences, it 
is far easier and faster to clear a few miles of runway and 
ramps than hundreds of miles of highways.
    And in complex, catastrophic events, such as last summer's 
National Level Exercise 11, sometimes referred to NLE 11, a 
major earthquake along the New Madrid Fault or the Japanese 
experiences of a year ago, outgoing refugee traffic will make 
in-bound relief traffic practically impossible.
    I recognize that a once-in-a-100-year event, such as the 
Hurricane Katrina, may not be the best benchmark for 
requirements planning, but it does provide a frame of reference 
for complex, catastrophic events.
    In response to Hurricane Katrina, the Air National Guard 
used 83 Air National Guard airlift aircraft or about 35 percent 
of the Air Guard inventory at that time to transport supplies, 
equipment, and aid workers into the stricken area and to 
evaluate victims.
    Of the 29 Air Guard airlift units that supported the 
Katrina recovery mission, 6 have undergone major mission 
changes, primary due to BRAC [Base Closure and Realignment] 
2005, and more could be affected by fiscal year 2013 budget.
    It is also not just about numbers of aircraft that will be 
needed to respond to simultaneous domestic and overseas events. 
It is also about basing or disbursement. During a major event, 
such as a hurricane, earthquake, or chemical, biological, 
radiological, or nuclear event, the aircraft and personnel in 
the affected area may not be available to respond.
    We have all learned a lot since Hurricane Katrina, and even 
since MCRS 2016 was done. NORTHCOM [Northern Command], FEMA 
[Federal Emergency Management Agency], and the National Guard 
are working to improve the Nation's response capabilities and 
to better understand response requirements including airlift. 
But now is not the time to assume away domestic airlift needs.
    It is interesting to note that, because of the timing of 
MCRS 2016, it was not informed by the new national strategy or 
the lesson of National Level Exercise 11 or the restructuring 
of the chemical, biological, and radiological enterprise, which 
created 10 homeland response forces in the Air National Guard, 
each comprised of 550 passengers or soldiers and airmen that 
could in all likelihood require airlift transportation to the 
next domestic emergency.
    Thank you for inviting me here today. Thank you for your 
service to the Nation and support to the United States Air 
Force and its Reserve Components. And I look forward to 
answering your questions.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 48.]
    Mr. Akin. Thank you, General.
    And Major General Barclay.

 STATEMENT OF MG JAMES O. BARCLAY, USA, ASSISTANT DEPUTY CHIEF 
                            OF STAFF

    General Barclay. Chairman Akin, Ranking Member McIntyre, 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear here today, and I also welcome this 
opportunity to testify before you and appreciate the tremendous 
ongoing support of Congress and your committee to our soldiers 
stationed around the world.
    These soldiers need our efforts to sustain and support them 
as they continue to fight in one of our Nation's longest wars 
and doing this with an all-volunteer force.
    While our operational tempo is very high, our commitment to 
ensuring our Army force remains a viable and essential enabling 
capability to the joint force remains steadfast to the Army.
    Your continued leadership and support in providing full, 
timely and sustained funding is critical to our success.
    Everything we do in the Army, every decision we make, has 
one constant that we cannot subordinate, and that is the 
mitigation of risk to our soldiers who are in harm's way.
    Mr. Chairman, members of the subcommittee, I thank you 
again for your continued generous support and demonstrated 
commitment to the outstanding men and women of the United 
States Army and their families. I look forward to answering 
your questions. Thank you.
    [The prepared statement of General Barclay can be found in 
the Appendix on page 59.]
    Mr. Akin. Thank you, General.
    And then Mr. Russell.

 STATEMENT OF CARY RUSSELL, DIRECTOR, DEFENSE CAPABILITIES AND 
       MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Russell. Mr. Chairman, Ranking Member McIntyre, members 
of the subcommittee, I appreciate the opportunity to be here 
today and talk about our work on DOD's mobility capabilities.
    As you know, in February 2010, DOD completed its Mobility 
Capabilities and Requirements Study 2016, or MCRS 2016. It is 
important to examine this study and its limitations in light of 
DOD's new strategic guidance on defense priorities and the Air 
Force's proposal for aircraft reductions.
    I will briefly summarize the key findings from our report 
on MCRS 2016 and then highlight some important air mobility 
issues to consider with respect to the Department's new 
strategic guidance.
    DOD's MCRS 2016 study was intended to provide an 
understanding of the range of mobility capabilities needed for 
possible future military operations by identifying the 
capabilities and requirements to support national strategy. In 
essence, the MCRS 2016 was to help leaders make investment 
decisions regarding mobility systems.
    MCRS 2016 had several specific objectives, and my statement 
will focus on our analysis of two of these. One, determining 
the gaps or shortfalls and overlaps or excesses associated with 
mobility capabilities; and two, providing a risk assessment.
    We found that although the MCRS 2016 included some useful 
information concerning air mobility systems, it did not provide 
decisionmakers with specific information on shortfalls and 
excesses or the associated risks.
    For each of the three cases of potential conflicts or 
disasters that DOD used in the MCRS 2016 study, DOD identified 
the required capabilities for air mobility systems. But the 
study stopped short of explicitly stating whether or a 
shortfall or excess existed.
    For example, in each case the study identified unused 
strategic airlift capacity but did not state whether this 
unused capacity represented an excess of strategic mobility 
aircraft such as the C-5.
    The MCRS 2016 also did not provide risk assessments related 
to potential shortfalls and excesses in mobility capabilities. 
Assessing risk related to shortfalls and excesses is important. 
The risk associated with shortfalls is that the mission might 
not be accomplished, while the risk associated with excesses is 
that resources may be expended unnecessarily.
    The MCRS 2016 showed, for example, that airborne tanker 
demand exceeded tanker capacity by 20 percent in one of its 
cases, but it did not identify the risk associated with this 
potential shortfall.
    At the time we issued our report on the MCRS 2016 in 
December 2010, we recommended that DOD explicitly identify 
shortfalls and excesses in mobility systems, identify the 
associated risks, and provide this additional analysis to DOD 
and congressional decisionmakers.
    Although DOD disagreed with the recommendations, 
decisionmakers rely on studies such MCRS 2016 so that they can 
make informed choices to address shortfalls and excesses.
    If the MCRS 2016 had identified an excess, decisionmakers 
may have chosen either to retire aircraft or keep an 
operational reserve to mitigate against unforeseen events. Or 
if the study had identified a shortfall, decisionmakers may 
have chosen to accept the operational risk or sought to 
increase capabilities.
    Furthermore, quantifying the risk associated with specific 
mobility systems could help with decisions to allocate 
resources so that the most risk can be addressed at the least 
cost. Therefore we continue to believe that DOD needs to report 
on shortfalls, excesses, and associated risks.
    I would like to now turn to a brief discussion of DOD's new 
strategic guidance, issued just this past January, which could 
affect air-mobility requirements.
    DOD has stated that the guidance will ensure that our 
military is ready for the full range of contingencies. However, 
it includes changes from previous strategy, such as U.S. forces 
will no longer be sized to conduct large-scale, prolonged 
stability operation.
    Based on the new guidance, the Air Force has proposed 
changes to the mobility air fleet, including reductions of 130 
mobility aircraft. But the Air Force's February 2012 document 
that outlines its proposed reductions does not provide details 
of any analyses.
    Given the new guidance, it is unclear to what extent the 
requirements developed from the MCRS are relevant today.
    Thank you, Mr. Chairman, members of the subcommittee. That 
concludes my remarks. I would happy to take any questions you 
may have.
    [The prepared statement of Mr. Russell can be found in the 
Appendix on page 65.]
    Mr. Akin. Thank you, Mr. Russell.
    And, General Bogdan, I understand you did have a couple of 
thoughts before we get started in the questions and all.

STATEMENT OF MAJ GEN CHRISTOPHER BOGDAN, USAF, DIRECTOR, KC-46 
                TANKER MOBILIZATION DIRECTORATE

    General Bogdan. Thank you, sir.
    Chairman Akin, Ranking Member McIntyre, and the 
distinguished members of the subcommittee, thank you for the 
opportunity for me to address this committee with an update of 
the status of the KC-46 program, 1 year after contract award.
    I have been the KC-46 Program Executive Officer and Program 
Director since May of 2009, as we began the second KC-X source 
selection. I appreciate the subcommittee's continued support of 
our Air Force tanker programs and of our Air Force and look 
forward to answering your questions today and continuing to 
brief you and your professional staff on a regular basis on the 
execution of the KC-46 program. Thank you.
    Mr. Akin. Thank you very much.
    One thing that may be for the benefit of the committee I 
think that might be helpful is just to go to kind of a before-
and-after here in terms of just number of aircraft, because 
that would give us a little bit of a sense of what we are 
doing.
    So let us identify--let us just start from the top. We have 
got tankers. And how many do we currently have before we make 
these cuts?
    General Bogdan, you don't know for sure? Okay.
    General Bogdan. Yes, sir, I do.
    Currently the tanker fleet consists of KC-135s and KC-10s, 
and there are 453 in the inventory today; 59 of them are KC-10s 
and 794 of them are KC-135s.
    Mr. Akin. Let us do those numbers again. I wasn't quite 
fast enough.
    The total in inventory is how much?
    General Bogdan. Four hundred and fifty-three.
    Mr. Akin. Four hundred and fifty-three--and we are going to 
drop that to what?
    General Johns. Mr. Chairman, we are going to take down 20 
KC-135s.
    Mr. Akin. 43.
    General Johns. 20 will come off the KC-135, sir.
    Mr. Akin. 20?
    General Johns. Yes, sir.
    Mr. Akin. So we are going to go minus 20 out of the KC-135. 
Okay. So we----
    General Johns. And the KC-10s stay the same, Mr. Chairman.
    Mr. Akin. Okay. Okay.
    And then let us see what we have beyond that. We have got 
your big C-17s. What do you call the----
    General Johns. C-17, sir, that is the----
    Mr. Akin. Right. What do you call them, though----
    General Johns. Loadmaster.
    Mr. Akin. Yes, I know, but what--they are the large cargo-
hauling planes. Is there a category for those?
    General Johns. Strategic airlift aircraft.
    Mr. Akin. Okay.
    General Johns. So we put that, the C-5 and the C-17, in the 
same category, Mr. Chairman.
    Mr. Akin. And we are reducing--how many do we have total 
aircraft?
    General Johns. 223.
    Mr. Akin. 223.
    General Johns. And we have sustained that number, Mr. 
Chairman.
    Mr. Akin. So you keep the same number----
    General Johns. Correct.
    Mr. Akin [continuing]. Of those. You are retiring, what is 
it, the C-5s that are the A models?
    General Johns. Yes, Mr. Chairman. So we have 79 C-5s, which 
are A's, B's and M models----
    Mr. Akin. Yes.
    General Johns [continuing]. And we are going to ask them to 
retire 27 C-5As, not convert them, and retire them.
    Mr. Akin. So you are going from 223 down by 27, right?
    General Johns. Two hundred twenty-three, plus we would have 
to add the 79, if you want to put C-5s and C-17s together. So 
C-17s stay the same at 223; the C-5 goes from 79 down to 52.
    Mr. Akin. Okay. So you got strategic and then you have--the 
C-130s. You don't call those strategic, right?
    General Johns. Tactical airlift.
    Mr. Akin. Tactical, yes.
    General Johns. Mr. Chairman, we are going from 390 to 318 
C-130s.
    Mr. Akin. 390 to 318.
    General Johns. And then the C-27 is the--I call it the 
little brother.
    Mr. Akin. Yes.
    General Johns. And it is going to be going down. Again, we 
are going to go to zero with that. And we haven't fully taken 
the----
    Mr. Akin. What do you have, 38 now?
    General Johns. No, sir. We have nine delivered, and we are 
supposed to get more, and then we are going to go down zero.
    Mr. Akin. Okay. So that kind of covers the whole--does that 
cover the whole waterfront of all the aircraft?
    General Johns. The ones that we are talking about for the 
airlift support, yes, Mr. Chairman, we have the specialty fleet 
at Andrews, but that is not really part of----
    Mr. Akin. Part of what we are discussing here.
    Now then the Guard--are these numbers to include what you 
have in the Guard as well?
    General Johns. That is true.
    Mr. Akin. Okay.
    General Johns. The general has decided----
    Mr. Akin. Okay, so this is across the whole spectrum of 
what we are trying to do.
    I am one of these people I have to get the big picture 
before I can get into the details a little bit, so bear with 
me.
    So now, because the fact that we are whacking the budget 
for reasons that have nothing to do with the military 
whatsoever or the condition of the world whatsoever--I mean, 
other than the world outside of Washington D.C., that is--there 
was a decision that we are going have to do things with less 
money. So we come up with a new strategy in order to justify, 
you know, spending less money.
    So we take a look at potential contingencies around the 
world, and then from that we back out what we think might 
happen. And from those numbers you come up with a strategic 
airlift requirement, is that correct?
    In other words, if somebody does this to somebody else, 
military planners take a look at that operation. And then they 
are going to say, ``Well, that means we are going to need so 
much airlift.'' Is that the way it works?
    General Johns. Yes, Mr. Chairman.
    Again, looked at what does the Nation need of its military 
on that strategic defense part, and then how does that apply to 
what airlift requirements are there to support that. From 
humanitarian across to full military spectrum wartime----
    Mr. Akin. I think that is what I was trying to say anyway. 
So in other words, the other part of the military generates 
what they think they are going to need for airlift, is that 
correct? Or do you say this is what I think you are going to 
need?
    General Johns. Mr. Chairman I think the COCOMs [Combatant 
Commands] come together under--the joint staff OSD--ultimately 
TRANSCOM [Transportation Command]--will say, ``Here is all the 
requirements,'' and then we look at, ``How do I match the 
aircraft to that requirement?''
    So we have an input but there is also the views of others 
who say, ``Here is how we think you can utilize the aircraft.'' 
So it is a big effort that comes together. But clearly air 
mobility command--the Air Force, TRANSCOM--answer that 
basically capability of what is required.
    And we answer that to the other leadership in the OSD who 
talk to us and say, ``Okay. Have you thought about this? Have 
you thought about that?'' So it is a very large discussion, Mr. 
Chairman.
    Mr. Akin. Well, I believe it is a large discussion. What I 
am trying to identify is where are the assumptions loaded at 
the front end?
    Are you given that, ``We need to move this much material in 
this period of time from here to here,'' that type of thing? Is 
that what you are given to work with?
    General Johns. Yes, Mr. Chairman.
    Mr. Akin. And then from those you can say, ``With these 
aircraft we could do it''?
    General Johns. Yes, sir.
    Mr. Akin. Okay, now the assumptions that went into that--
are you involved in those assumptions or is that something that 
is happening sort of--are those numbers that are passed on to 
you that you don't really challenge particularly?
    General Johns. No, we are involved in and we do have 
discussion about--and I won't say challenge, but we do discuss 
them and debate them.
    Mr. Akin. Okay. Okay, that is helpful.
    So what we are saying is that somehow or other we are 
planning that we are not going to be able to do as much stuff 
and therefore we can get by with a lower level of number of 
aircraft?
    General Johns. Yes, Mr. Chairman that is true, but we also 
had an excess from before. So we are also trying to be good 
stewards. I shouldn't have any additional capability that I 
don't need to ensure the success that we can always say yes to 
whatever call we get from the Nation.
    Mr. Akin. Right.
    Now, Mr. Russell, you were pretty erudite. You know, it is 
afternoon after lunch. This is tough on some of us, okay?
    What I think I am hearing you say is: Here is the trade-
off. You have a certain probability that you can meet all these 
requirements. If you don't, the wheels fall off of the whole 
mission, so what is it cost you to keep a little bit of Reserve 
versus what your risk if you don't--if you can't make that 
capability? Are those the things you were looking at?
    Mr. Russell. Yes, I think generally.
    And when we talked about the shortcomings of the MCRS 2016; 
it really didn't lay that out. It laid out a capacity required, 
and then it laid out existing capacity and it showed a delta. 
Either it was too much, you know, more capacity required or 
less, but it didn't go forth and declare a certain number of 
aircrafts like a C-5 is in excess or lay out a risk associated 
with maintaining that fleet in terms of, you know being able to 
accomplish the mission or being in a position of having more 
aircraft than needed.
    Mr. Akin. Okay, and General Wyatt, I think what I was 
hearing you say in very tactful language was you weren't really 
included in the planning process is that--or am I saying that 
too strongly?
    General Wyatt. Well I think, you know, when you look at the 
way the MCRS was put together, the primary focus of the MCRS 
was the national warfighting strategy and the warfight 
overseas.
    Mr. Akin. Okay.
    General Wyatt. My concern with MCRS is that it was kind of 
a cursory look at the requirements of the homeland, I think 
the----
    Mr. Akin. Is your requirement pretty much strictly 
homeland? Or do you supplement sometimes way that other Guards 
do sometimes you get units moved overseas to do stuff?
    General Wyatt. Mr. Chairman we do both.
    Our Air Guardsmen swear an oath to the Constitution of the 
United States which requires them to answer the President's 
call for the Title 10 mission overseas warfight. And we also 
take an oath to the constitution of our respective states, 
which requires us to answer the call of the governors for 
domestic activities within the state boundaries.
    Mr. Akin. But still, General Johns, you know the aircrafts 
that are in the Guard right? So, when you are looking at 
capability of moving stuff, that is something that everybody 
understands. Or is there a lot of other logistical stuff that 
has to go with those aircraft that needs to be part of that 
equation as well?
    General Johns. I worry about the enterprise. I worry about 
the airmen, Active Guard and Reserve. As I said, two-thirds of 
the capability of the Nation in mobility is in the Guard and 
Reserve.
    Mr. Akin. Two-thirds?
    General Johns. Two-thirds; two-thirds of the tankers, two-
thirds of the C-5s, and about two-thirds of the C-130s. We did 
that back in the mid-1990s when we said, ``Okay; we are coming 
out of the old scenario,'' and we said, ``We only need the 
Guard and the Reserve for that strategic mobilization for the 
big wars.''
    Well that held true until about 2001, and then we went to 
the Guard and Reserve for so many of our contingencies and 
deployments. So I literally count on the Guard and Reserve to 
answer the call tonight.
    We went to Libya to support the air refueling mission as we 
were supporting the efforts there. I went to the Guard units 
and the Reserve units because a lot of my Active Duty were 
already deployed and said, ``Can you take this mission?'' And 
sir, every guardsman, every reservist said, ``Sir, when do you 
want us to leave?'' and the answer was, ``Tomorrow.''
    And on that phone call, because we didn't have mobilization 
authority--it was volunteerism--I had 564 airmen, primarily 
Guard and Reserve, deploy from their home units and head to 
Moron, Spain. And they stayed there on and off from March to 
October. That is the kind of commitment we have from our Guard 
and Reserve. But, I also have to worry about balancing, because 
this Guard and Reserve--the traditional--they have full-time 
jobs; they have families. And they can come in and say, ``Sir, 
we can't do this''----
    Mr. Akin. I understand that kind of balance, I am just 
wondering--I got the impression that the plan that we are 
looking at here has been pulled together fairly quickly because 
of the budgetary requirements.
    And General Wyatt, you can--given the parameters that 
were--if you buy the assumptions in the model, are you 
comfortable enough that you can provide what is needed just 
assuming we don't blow through that model?
    General Wyatt. As far as the Federal warfight, the Title 10 
mission, I am comfortable that we can do that. I have some 
concern on the domestic operations requirements----
    Mr. Akin. Because you could get slammed with something that 
you are not sure about and now you are strength is lower. And 
if we get hit with a big national contingency or something, 
then that is a problem, or could be a problem?
    General Wyatt. Yes sir. As the Air Guard, aircraft that are 
in--and airmen that are in Title 32 status working for the 
governors, in the event of a national Title 10 effort, we would 
come to the aid of the Active Component as we did in Odyssey 
Dawn.
    And likewise, if there were something that happened that 
overwhelmed the Guard in the domestic arena, we would look to 
the Active Component and the Reserve Component, and the Army 
National Guard brothers and sisters for lift capability too.
    The question becomes the timing that it takes to get there. 
And the commitments that General John's Title 10 forces have 
around the world. And, you know, there are some scenarios that 
would stress both the Title 10 warfight and the domestic 
operations depending on the scenarios and the events.
    Mr. Akin. Thank you General. I know I have been talking a 
little bit too long for my colleagues here.
    Mr. McIntyre, you want to?
    Mr. McIntyre. Thank you Mr. Chairman, and thank you 
gentlemen for your service to our country.
    General Johns, assuming our current commitments remain the 
same in the near term, how do you plan to meet the airlift 
requirement that will go along with the strategic shift of 
forces to the Asia-Pacific AOR [Area of Responsibility] in the 
plan for rotational presence throughout that region?
    General Johns. Sir, the commitments that we have on the 
higher end of the spectrum remain unchanged. So that is 
something we planned for and that will remain. If we have 
increased rotational during peacetime--more exercises and 
things like that--in that environment, we are not stressed.
    So in wartime, we mobilize the entire Guard and Reserve and 
everybody--we go to the fight, we come home when we are done.
    In peacetime I won't mobilize, so I go to the volunteerism, 
I go to the Active Duty. And there my real issue is, ``Do I 
have enough airmen to do a dwell-to-deploy?'' We talk about a 
one-to-two, where you are gone one period and home twice as 
long for the Active Duty. I want to sustain that.
    For the Guard and Reserve, it is about a one-to-five, 
because again of their full-time commitments to employers and 
families. So how do we balance that?
    So we look at that, and say do we have the right rotational 
presence. So in the 2013, I actually found that I was short on 
the Active Duty C-130 aircrew and maintainers. We built three 
squadrons of C-130 aircrew and maintainers, but we put them 
with the Guard and the Reserve because they have a predominance 
of the iron.
    So this way I am actually able to balance the force, get 
access to the hardware, by putting Active Duty members with the 
Air National Guard, and the Air Force Reserve to share the 
aircraft. So that is how we balance in the peacetime 
contingency when we are not mobilized sir.
    Mr. McIntyre. Thank you.
    General Barclay, you said in your testimony that the direct 
support role does not fulfill 100 percent of the Army's 
requirement for time-sensitive, mission-critical cargo and 
personnel. The Army fills this gap with contract airlift in CH-
47 aircraft in Operation Enduring Freedom.
    Having said that, if you could clarify for us--if the Air 
Force has the responsibility for executing the Army's direct 
support mission critical airlift mission, why then is the Army 
having to supplement the Air Force with contractor provided 
airlift and CH-47 helio aircraft to meet your requirements?
    General Barclay. So it is a combination of several reasons 
as we are trying to meet those needs of the deployed forces in 
theater.
    The Air Force does provide--we have an ongoing now direct-
support study where the C-27s and the C-130, which were 
providing direct-support airlift to free up some of the 47 
hours and allow them to get to more combat-focused operational 
missions; but there is still a gap there required to meet the 
full movement of supplies and sustainment to those forces; some 
of those because the disparate locations require more rotary 
wing.
    And so that is why, if you look at the combination of what 
we have in theater now, those contract platforms, 55 of them 
are rotary-wing type, and there are about 10 to 12 fixed-wing 
moving those type of supplies. But the majority of them are 
rotary-wing to assist the Army to continue to move supplies out 
to those FOBs [Forward Operating Base] and COBs [Contingency 
Operating Base] for the soldiers.
    Mr. McIntyre. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Akin. Okay.
    Mr. Young.
    Mr. Young. I thank all our panelists for your service; 
thank you for being here today.
    Mr. Russell, I will direct my first question to you, but I 
guess I will tee this up by saying that, you know, I have been 
a bit frustrated through this whole process. As we are 
refocusing our military strategy, we have heard from a number 
of uniformed persons, think-tankers, and others who appeared 
before the full committee and our subcommittees indicating that 
any cuts to our military budget have to be strategy-based as 
opposed to merely a budget exercise.
    That is budgeting down or up to a particular figure doesn't 
make a whole lot of sense as we develop a new strategy here and 
adapt to that strategy.
    Former Defense Secretary Gates said that, you know, Look, 
if we are going to embark upon more military cuts, we need to 
articulate specifically where we are no longer going to go and 
what missions we are no longer going to perform, or which 
missions are of lesser importance.
    And we have done that in a very vague way, I think, through 
the new strategic guidance. It has been followed up by the 
budget request, but translating the new strategic guidance, 
which is an essentially an edit to the existing Quadrennial 
Defense Review--translating that into specific line items and 
programmatic changes--I have very little idea how this, sort 
of, black magic has occurred.
    And so that takes me to Mr. Russell and the report that I 
just had an opportunity to read that I thought was very helpful 
and encouraging. I think your reading of the situation, at 
least with respect to the air mobility command, is similar to 
mine.
    You know, I highlighted a number of different things you 
wrote here, but in essence, you are saying that the Air Force's 
February 2012 document--I am quoting here--``that outlines its 
proposed aircraft retirements does not provide details of any 
analyses. Given the new strategic guidance, it is unclear the 
extent to which the requirements developed from the MCRS 2016 
are still relevant.''
    That is written in a very academic and unexciting sort of 
fashion--but that seems pretty damning when you are coming up 
with new budget requests.
    They don't provide any details of analysis. How are we, in 
our oversight role, to, you know, make a decision as to whether 
or not these proposed cuts and different spending priorities--
if they are done wisely?
    That is part A of my question, and then part B would be, do 
you believe that analysis exists somewhere? Is it on paper, and 
if so, where do you think we might find it, and from whom?
    Mr. Russell. Okay. Well, first, with regards to the second 
part of the question, we focused our work, and my statement was 
on the MCRS 2016 study, so haven't seen the studies that have 
been done subsequent to that, so it is difficult to know what 
is in it and what is not, but you are right; we have not seen 
any details that have explained the methodologies behind it.
    But going back to the first part, you are right; the MCRS 
2016 study really was built based upon detailed defense 
planning guidance in effect at the time with detailed 
scenarios. And all that rolled up into a set of requirements, 
which was then provided.
    The criticisms we had was that it didn't draw the line 
directly to excesses or shortages, but it was a very elaborate 
methodology. So the question is: Now that we have a new defense 
strategy, what do those scenarios look like today?
    And that is what is not certain. So, in order to take the 
MCRS 2016 study and all the elaborate methodology that was done 
there, and then walk it to today's decision is difficult 
because it is not sure how that new strategy translates into 
those specific scenarios.
    Mr. Young. Based on your past work in this area, Mr. 
Russell, do you have any idea, and perhaps after you consider 
this question, others might weigh in, where those studies might 
reside, who we might contact to receive them?
    Mr. Russell. Well, there is a number of folks--you go back 
to the MCRS 2016, the OSD CAPE, the Cost Assessment and Program 
Evaluation, played a large role in developing that--in those 
studies. And I presume they might have played a role here in 
some of these studies as well.
    And then TRANSCOM, U.S. Transportation Command, also in the 
MCRS-16, also played a heavy role in designing that and then 
developing that study as well.
    Mr. Young. Okay. You know, I think my general sentiment 
here seems to be shared by a number of adjutants general of the 
National Guard, because I have seen a letter that several 
signed on to, addressed to our Secretary of Defense, indicating 
they weren't included in this sort of planning here.
    So I have got about 15 seconds, and I will turn it over to 
the panel, if you have any closing thoughts about this topic.
    General Johns. If I may, sir, the MCRS was done, as we 
said, in 2010, so it was--as the new strategy was built, OSD 
took different scenarios, as we talked about, and said, ``Okay, 
what is the feasibility and how many scenarios will occur,'' so 
Chairman Dempsey had talked about that with the committee.
    The joint staff did an operational assessment 12, and then 
the dep-sec [Deputy Secretary] also did some other things with 
CAPE and said, ``Okay, let us kind of take MCRS now that we 
know what it was; we changed the scenarios. Let us do a one-
off.'' And that was what informed us as we were building this 
President's budget submission.
    Mr. Young. I would like to see some papers. I would like to 
maybe see these studies. You indicated there are four separate 
studies that went into the President's air-mobility request. Is 
that something I could obtain, General?
    General Johns. Sir, let me take it for action because that 
was done by the Department of Defense, and I am part of that. I 
will take that back to the Department.
    [The information referred to can be found in the Appendix 
on page 81.]
    Mr. Young. All right.
    General Johns. And I will take that back to the Department.
    Mr. Young. Thank you very much.
    I yield back.
    Mr. Akin. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    When General Schwartz came over, last week, I guess, we, 
again, had a number of members who asked questions about the C-
27 and the decision to, again, not just truncate the program 
but eliminate it and take brand-new planes and send them to the 
boneyards, I guess it is called.
    And intuitively, I think people are just going to have a 
hard time, sort of, understanding that. But, you know, we 
figured, well, okay, we will have an analysis that is going to 
show why even flying these planes is a net loser.
    Our committee staff has actually done, I think, a pretty 
interesting job of looking at other cost estimates of what it 
costs to operate the C-27; which, as you know, there is a 
couple planes over in Afghanistan now.
    In terms of the flying-hour costs, in terms of the 
lifecycle costs, I mean, it actually seems like it is the 
opposite, that the C-27 is more efficient and cheaper to 
operate than the C-130s.
    So explain to me again why we--you know, again, we have cut 
programs. I mean, I come from Connecticut. We are very familiar 
with the F-22 and what happened with that program, but we 
didn't stop flying the planes.
    I just have a hard time getting my head around why we are 
not just using what is already built and apparently using with 
costs that actually work, in terms of efficiency?
    General Johns. If I can, Mr. Courtney, as we look at coming 
down, I have two measures: How many do we need for a capacity 
and how good do we have to be for a capability?
    And so with the reduction of $487 billion, we had to go 
back and look and say, ``What do we really need to meet all the 
commitments of our Nation, from contingency to, as I said, 
military operations?''
    And we have a commitment to direct support, you know, to 
the Army, and that is very important to us. But as we came down 
and looked at it, yes, the C-27 was a very good aircraft; it is 
a very good aircraft. The unit at Mansfield has done wonderful 
work in deploying with it.
    We have been with them; we talked to them; the wing 
commander sits behind me, and a phenomenal airman.
    But the issue came, as we went down to the minimum capacity 
we needed, what should we keep in the Air Force?
    And, yes, the C-27 is cost-effective, but it is a niche 
capability compared to what we can do with the C-130. So as we 
went down, I would rather have a fleet of C-130s than give up 
more C-130s to keep the C-27, because the C-130 can serve a 
larger purpose.
    In the initial stages of a war, I can use a C-130 from day 
one; I don't get to use the C-27 until day whatever, when I am 
now doing direct support for the Army because it is not in the 
initial phases.
    When I look at the number of pallets I can carry, I can 
carry more with the C-130. So I have to reduce to the fleet 
capacity-wise, I would rather have it be with C-130s.
    And so that was the cornerstone of the conversation, sir.
    Mr. Courtney. Well, and again, I would find that a 
perfectly acceptable answer if we were talking about going from 
38 down to whatever the produced number is, which is 18 or 19 
or whatever is.
    But to absolutely just mothball them--I think people really 
are going to struggle with that. You know, the chairman, sort 
of, walked through with you the net reductions in--category by 
category, which, again, was very helpful in terms of framing 
the top line.
    But it is my understanding that all of those reductions are 
going to be in the Air National Guard and not a single plane in 
the Active Duty Component.
    And given, you know, what General Wyatt said about the 
domestic needs, that, you know, he is somewhat concerned about, 
I mean, have we got the right balance here?
    I mean, I have just, sort of, wondered whether that sort 
of--well, why don't you respond to that question?
    General Johns. Sir, the second part first.
    When we look at the balance of the Active and the Guard and 
Reserve, two-thirds of the C-130s are in the Guard and Reserve. 
Right now, the Active Duty members, with the limited assets 
that we have in the Active Duty, I have them on a dwell-to-
deploy that is one-to-one. They are gone as much as they are 
home. And I see that commitment staying there.
    My guardsmen--and I will say ``my guardsmen'' because I am 
very worried and I--you know, they are on a one-to-five dwell-
to-deploy and going down to a one-to-four.
    So we are asking a lot of them. We have plenty of aircraft. 
It is about the crew. So this last cycle, we--actually, we 
built Active Duty crews to put them with the Guard units so I 
can actually reduce the burden on the Active Duty aircrews. So 
that is why we worried about that.
    And then to your question about, ``Why not just go to a 
lower number of C-27s?''--it goes to the ownership costs; 
because, if I have one or two, I still have the depot concerns; 
I have all of the overhaul capability. And then people will 
debate about what the numbers are, but I still have a cost of 
ownership even if I have a small amount.
    So the more efficient operation is to basically have a 
fleet that doesn't include both the C-27 with all the lifecycle 
costs there. Though we can talk about efficiencies, it is still 
an additional cost, when I can go to a C-130 fleet.
    Mr. Courtney. And again, I mean, that sounds logical.
    And, General Wyatt, you know this. I mean, in Connecticut 
we actually built up infrastructure to prepare for the mission 
of C-27 and so it does seem like we have already made that 
investment in terms of some of these, you know, depot class, et 
cetera.
    The question obviously at the end of the day in terms of 
the Air Guard is just, you know, ``Where are we going to be 
with our domestic priorities?''
    Governor Malloy from Connecticut has joined a number of 
governors expressing deep concerns. Again, the MC-12 sounds 
like a really interesting plane and mission. Still, again, I 
think people are trying to understand, you know, or visualize, 
you know, where New England, you know, reconnaissance missions 
are going to be flying.
    I mean, I assume they will be deployed overseas, but in 
terms of the domestic role of, you know, the New England units, 
it is hard to see how that fits into, you know, the priorities 
of the governors that are there. I don't know if you want to 
comment on that, General.
    General Wyatt. We know the ISR [Intelligence, Surveillance, 
and Reconnaissance] in the Air Force is a growing demand, and 
so there are, I think, some enduring missions in the ISR world 
where the MC-12 resides.
    There are missions that we have performed in the Air 
National Guard with the RC-26 supporting counter-drug 
operations. And the MC-12, while it has an ISR role in the 
Title 10 fight, it also could assist in our counter-drug 
operations and will be a good backfill, I think, for the RC-12, 
which is being eliminated out of the Air National Guard 
inventory as part of the PB13 [President's Budget Fiscal Year 
2013], too.
    When we looked at kind of two different issues--mobility to 
governors is extremely important for all the reasons that I 
talked about. ISR is important, too. So you have an enduring 
mission that we think will be coming into Connecticut. You are 
right. There was a MILCON [Military Construction] project there 
to build a hangar for C-27s. The MC-12 is a considerably 
smaller aircraft.
    But the thing that we have to put into perspective here, as 
General Johns tries to reach that balance--he has some issues 
that he has to address. You know, I am not a combatant 
commander, so my primary concern is the domestic role. And I 
guess what concerns me is not a whole lot of focus in my 
opinion to the domestic requirements--hopefully, we will get 
that in the future as we learn more from the exercises that we 
do do.
    But it is a combination of things that goes back to the 
2005 BRAC and the loss of a considerable amount of mobility out 
of the Air National Guard at that point in time. The Army is 
divesting 43 C-23s out of the Army National Guard. I kind of 
look at it from a perspective of the National Guard, Army and 
Air; and when you combine the divestiture of the C-23, the 
divestiture of the C-27, the reduction of C-130s out of BRAC, 
the reduction of C-130s as a result of PB13, I can't help but 
get a little bit concerned.
    It is difficult and tough questions that we have to answer 
because we have the balance that is needed for the Title 10 
warfighter overseas, but we also have to be concerned about the 
domestic operations here in the homeland and we are working 
through the Department to try to get that balanced focus on 
both of those requirements for the Air Force.
    Mr. Akin. Thank you.
    And Mr. Griffin.
    Mr. Griffin. Thank you, Mr. Chairman.
    General Johns and General Wyatt--whoever has the best 
knowledge on this, feel free to answer.
    As you know, I have Little Rock Air Force Base in my 
district, and I am real interested in AMP [Avionics 
Modernization Program] versus what some are calling AMP-lite. 
And I understand that the President has talked about--or the 
president's budget claims that there will be a savings of $2.6 
billion by transitioning away from AMP to AMP-lite.
    And I have been having a hard time getting an analysis. I 
hear the top-line number, but clearly there are assumptions 
underlying the analysis. And I would like to just formally ask 
if you could go back to DOD and, just like you are for my 
colleague over here, and find out if I can get copies of any 
supporting documentation that would enlighten me on what the 
assumptions are underlying the alleged cost savings.
    And I am interested, for example, when you are looking at 
AMP versus AMP-lite, did you consider the cost of the Navigator 
slot that is going to stay there; the retirement for that 
Navigator and all that?
    So anything that you could get me that lays that out would 
be very helpful because, you know, I just like to trust, but 
verify, and crunch some of those numbers myself. And so if you 
could help facilitate that, that would be great.
    It looks like you are answering that you did consider the 
Navigator personnel costs. Is that what you are saying, 
General?
    General Johns. Yes, sir, we did.
    And we also looked at--as a test pilot, I first flew an AMP 
C-130 in 1991. And now, we are delivering it. And what an AMP 
does basically is takes an analog aircraft and tries to make it 
a digital aircraft. And so we were on the lead of doing that.
    And so we went through that and we learned a lot by doing 
it with the C-130--one of the first aircraft to do that. And we 
have come a long way with it, but the costs to actually do AMP 
are very high, and we will provide those numbers.
    What we looked at are called the ``son of AMP'' or the 
follow-on. Basically, many other air forces of C-130s, they 
have actually gone out to other people and they have said, 
``Hey, we can do this much cheaper now because technology has 
advanced.''
    So by doing this, we are giving the same basic safety 
capabilities that I need for my aircrew, and so the aircraft 
and the crews can perform because, again, they are very 
dedicated airmen that do this, at a much lower cost, 
significantly lower cost. But it does mean we are keeping the 
Navigator with us, and that was part of the discussions we had 
as we looked at doing that, sir.
    Mr. Griffin. And my understanding--and correct me if I am 
wrong--but I met with a lot of the pilots on the National Guard 
side at Little Rock Air Force Base a couple of weeks ago, I 
guess. And I had them sort of go down the list and enumerate 
for me what they anticipated would be left out of AMP-lite as 
compared to an AMP in terms of capabilities.
    And so, any information you have got on that would also be 
helpful. Sort of, ``These are the things we have got to drop if 
we go to an AMP-lite.''
    And has there been any kind of independent analysis of AMP 
versus AMP-lite? Just anything that you could get me on that 
would be great.
    General Johns. I would be happy to find it, Mr. Griffin, 
whatever we have.
    [The information referred to can be found in the Appendix 
on page 81.]
    Mr. Griffin. Okay.
    While I have got you here, General Wyatt, this is a little 
off-subject, but I am going to ask it anyway.
    With regard to the 188th in Fort Smith--we have talked 
about the A-10s and the fact that the A-10 mission is 
potentially going away. My understanding is that Secretary 
Panetta met with the Council of Governors in late February, 
maybe on the 28th or so, and that he had agreed to allow the 
Council of Governors to submit some recommendations for an 
alternate plan.
    Is that correct? Are you familiar with that?
    General Wyatt. I am, sir, and that is correct.
    Mr. Griffin. Okay.
    Could you give me an update on where that is in the 
process? Have they submitted the alternate plan? It looks like 
they have. I have got some of the contrasting reductions--the 
manpower adjustments here. Is that being considered? How long 
will that take? Could you elaborate on that?
    General Wyatt. The Council of Governors' plan, though, was 
submitted and is currently under review inside the United 
States Air Force. Air National Guard staff is working with 
headquarters Air Force staff to validate the cost estimates in 
the Council of Governors' plans. And at this point, it is being 
worked internally to the Air Force corporate process.
    As far as expectations, we are on a pretty tight timeline, 
so I would expect some sort of decision out of the Air Force 
here in the next week to 10 days, but don't hold me to that 
because I am not the one driving the time schedule, but it is 
being considered. Yes, sir.
    Mr. Griffin. Okay. And now I have only got 17 seconds, but 
I would just mention that with regard to the 188th in Fort 
Smith, I feel like the comments that Mr. Russell made in his 
report about there not being a basis for understanding how 
decisions were made. I feel that way about the 188th as well.
    And as we talked about over on the Senate side when we met, 
if any analyses come to light that you could share with me, 
that would be very helpful because, from the outside, it looks 
like decisions were made at 30,000 feet, if you will, and then 
they were just sort of forced--they were just pushed down on 
the force structure.
    It doesn't seem that there was a lot of individual analysis 
of Fort Smith and the different locations. Basically, I am 
asking for information.
    Thank you, Mr. Chairman.
    Thank you all.
    Mr. Langevin. Thank you, Mr. Chairman.
    General Johns, General Wyatt, General Bogdan, and General 
Barclay and Mr. Wilson, thank you very much for your service to 
the Nation and for appearing before the committee today.
    General Johns, if I could start with you, I would like to 
begin with a question about your force structure moving 
forward. One of the primary missions of the Armed Forces 
outlined in the new strategy is to defend the homeland and 
support civil authorities.
    My question is, are you confident that the C-130 can 
provide the best support to that mission? And how large is the 
set of CONUS [Continental United States] airports that would 
have been able to be served by the C-27, but cannot be served 
by the C-130?
    General Johns. Sir, thank you for the question.
    And General Wyatt talked about the guardsmen responding to 
the governor. I will offer that every military member will 
respond immediately to when our Nation calls, domestically and 
internationally. We will take an aircraft that is flying and 
say there is a crisis somewhere. We will divert that aircraft 
while it is airborne to go in support anybody--any nation, 
national need.
    So it is really not about the guardsmen doing this. It is 
about our military. And so those assets that are available, 
they are the Nation's assets, from a C-17, a large aircraft, 
even a C-5 or a 130, if we need to move it somewhere and we 
have done this--I don't want to say we do it daily, but we do 
it routinely across the Nation, across the globe--just say, 
``There is somebody in need. Let us divert the aircraft 
airborne and go pick up.''
    The one that comes to mind is the tsunami. We diverted a C-
17 to March Air Reserve Base, picked up the L.A. search-and-
rescue team, air refueled, then nonstop to Tokyo, where we were 
the first ones there to help save lives.
    So that is what we do, we answer that call. And I 
understand the concern about the guardsmen, but really I look 
at it as totality of the mobility capability to support our 
Nation, which includes that domestic mission.
    So I believe we have the capability to respond to the 
domestic missions. The question will be: How many do you want 
to plan on having while we are engaged in a global war?
    So that is where some of the math comes in, to say, ``Well, 
did we plan on three, did we plan on six?'' And so we go 
through that calculus and say, ``The most likely is let us plan 
on this many occurring here in the States. Let us look at what 
the overseas commitments will be,'' then, ``Do we have enough 
force structure?''
    So I believe we have looked at that to assess that we can 
respond to the national mission here locally, and then across 
to the global commitments.
    Mr. Langevin. But it still doesn't answer my question, 
though. How large is the set of CONUS airports that would have 
been able to be served by the C-27 that can't be served by the 
C-130?
    General Johns. Sir, we have a worldwide database, and so I 
can't answer the CONUS ones. I know globally it is 97 percent 
of all the bases are common to the C-27 and the C-130. But let 
me get an answer for the record, if I may, on specifically how 
many are unique to the C-27.
    But also, importantly, how close would that small, little 
strip be, if there is a difference, to a base that can service 
C-130 in terms of mileage, and, you know, if it is a five, 10 
mile difference? So I would like to answer that for the record, 
if I may.
    [The information referred to can be found in the Appendix 
on page 81.]
    Mr. Langevin. Fair enough. And maybe you answered my next 
question. How do you plan to address the shortcomings 
associated with state airports that cannot accommodate a C-130 
given the state's needs during domestic operations, such as a 
complex contingency operation?
    General Johns. Yes, sir.
    And then, again, I also count on my Army brethren, because 
every Air National Guard has an Army National Guard component, 
and I think also every state has helicopters, those marvelous 
CH-47s that can also respond and go right to somebody's 
backyard if we have to.
    So I think it is a combination of the Air and Army Guard to 
respond, and the Army and the Air Force at large to respond to 
the national need.
    Mr. Langevin. With the proposed pivot to the Asia-Pacific 
region, how will your airlift requirements change?
    General Johns. Sir, in terms of the higher end, that has 
been factored in. I see no change there.
    Where I see a change potentially is the increased exercise 
opportunities potentially down in Australia. So do I have more 
forces that I rotate? And a majority of the forces that 
actually move are commercial partners. Those commercial folks 
move 90 percent of all of my passengers right now.
    So I actually contract that out for exercises and also for 
redeployments to and from Afghanistan, they go on commercial 
air. So I see that capability residing as we do the exercises 
globally.
    Mr. Langevin. Very good. Those are basically the questions 
that I had. I appreciate the first part of the answer you gave 
when you talked about how nimble you can be and will be in 
terms of meeting the needs wherever they are, whether it is at 
a--situations arise at the state level or internationally; how 
nimble and flexible you are and your folks are in terms of 
responding to those emergencies and those contingencies.
    And I really do appreciate the job you are doing and thank 
you all of your service.
    With that, I will yield back, Mr. Chairman.
    Mr. Akin. Mr. Hunter, please.
    Mr. Hunter. Thanks, Mr. Chairman.
    Thank all of you on the panel today for your service and 
time.
    I guess the first thing I would say is I think we are in 
big trouble. And, two, I think that you are having to explain 
away cuts that you wouldn't do unless you were forced to do 
them and then explain the rationale behind them. I think that 
is where we are at right now.
    My question, I will just focus kind of largely on Guard and 
Active ratios. What were they? I mean, up until now what were 
the ratios for mobility? Did you have them down?
    General Wyatt. If I recall, initially, in early February, 
when the Air Force released its iron flow, I think the initial 
percentages were 51 percent Active, 49 percent Guard and 
Reserve. That would be the Reserve Component. And then PB13 
shifts the percentage I think to 55-45 or 54-46.
    Mr. Hunter. 54-46?
    General Wyatt. Yes, sir.
    General Johns. On mobility, though, it is much more 34 
Active Duty to 66 Guard and Reserve, and what the shift does 
now is make me about 36 Active Duty versus.
    So it is much different on the mobility side, again, 
because two-thirds of our capability really has been in the 
Guard and Reserve, with the exception of the C-17.
    Mr. Hunter. Okay. So explain that to me; I am not 
understanding--54-46, but not really.
    General Johns. That is for the total Air Force.
    Mr. Hunter. Okay.
    General Johns. Now, I am looking at just the mobility as a 
subset. Predominance of it really has been in the Guard and 
Reserve since the late 1990s. So it is different than----
    Mr. Hunter. 54-46 counts what, if it is not mobility? Like 
fighter planes or what?
    General Johns. Yes, sir. Fighter planes, the ISR, the 
bombers, the entire capability in the United States Air Force, 
I would offer.
    Mr. Hunter. What was the percentage of just mobility prior 
to the PB?
    General Johns. When I look at the tankers, the KC-135s, and 
I look at the C-130s and the C-5s, and I am probably in the 34-
66 percent. And so now that takes me--that is what it was. And 
by the shift I am up a couple percent in the Active Duty and 
down a couple percent in the Guard and Reserve.
    And, sir, if I could, I will provide the specific numbers 
for the record for you.
    Mr. Hunter. I don't care about specific numbers; I am just 
trying to get the gist of this.
    Then you got the 54-46 from the 49-51. Does that save you 
money? And that is total Air Force. Does that save the Active 
Duty Air Force money, General Johns?
    General Johns. Sir, I am pausing because when a person to 
work for full-time, a guardsman or Active Duty is all the same; 
and when they are mobilized at the same cost.
    When I am not using them--and in my world I am using all 
the same, so it doesn't specifically save me money. It may in 
the other parts of the Air Force if I am having them just in a 
strategic reserve and not requiring to use them. There is a 
savings, I think, to have members in the Guard and Reserve, you 
know, being on that traditional role and only being called when 
the Nation needs them.
    Mr. Hunter. Well, the reason I am asking--this is kind of 
obvious--even if it just goes up 1 percent Active and down 1 
percent Reserve/Guard, that still doesn't make sense to me 
then.
    General Johns. It is about the dwell-to-deploy.
    Right now, for example, I try to sustain our Active Duty to 
one-to-two dwell-to-deploy in the Guard and Reserve at one-to-
five. Why I have had to increase it in the mobility side is 
because my Active Duty, I have so few of them----
    Mr. Hunter. But you are cutting them at the same time.
    General Johns. No, sir, in the 130 I am actually growing 
those--Active Duty in the mobility side, sir, is all staying 
the same, in the Active Duty side we are potentially growing in 
the C-130 by three squadrons.
    Mr. Hunter. So you are saying that the Air Force personnel 
numbers are going to be going up?
    General Johns. In the mobility side, sir, yes, the mobility 
numbers actually grow a little bit in the Active Duty side and 
they come down in the Guard and Reserve side.
    Mr. Hunter. So the numbers come down in the Guard and 
Reserve side; by how much?
    General Johns. That is correct. I can give you the numbers 
total that would involve----
    Mr. Hunter. Don't do that. Let us me ask this. Does that 
save money?
    General Johns. It doesn't save money, but it balances the 
force. It balances the force for me so that I can keep the 
Active Duty healthy and I can keep the Guard and Reserve as I 
look at the demands of the force.
    So it is actually trying to do the right thing to preserve 
the health and welfare of our airmen who we are asking so much 
to do.
    So I am actually increasing the cost by having more Active 
Duty come on to balance this because too much was in the Guard 
and Reserve, based on the rotational needs we have.
    Mr. Hunter. Do you concur with that, General Wyatt?
    General Wyatt. Let me just say that, in the Air Force 
corporate process, the Air Guard is allowed a voice and we are 
allowed to make input into the process, in fact encouraged to 
do that.
    We don't always agree, as we engage in these debates, but 
the decision has been made, and so, as a Title 10 officer, I am 
supporting the way ahead.
    Mr. Hunter. Okay, well, that is pretty plainspoken. Well, 
once again, I think we are in big trouble, and Congress will 
try to fix this for you.
    I yield back. Thank you.
    Mr. Akin. Thank you.
    And I think Mr. Coffman is next.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you all for your service to our country.
    Mr. Russell, I will start with you. When we had a strategy, 
or still have a strategy, and I guess it is going to change, 
where the United States has the ability to do two concurrent 
conflicts at the same time.
    And I understand that we will, with these changes, be able 
to engage in one conflict and then, I guess, a spoiling or a 
holding action in the other one.
    I wonder if you or somebody else on the panel could confirm 
that the scenario before us today will strip us from the 
ability to engage in two concurrent conflicts. Is that correct? 
Would anybody like to--is anybody capable of answering that?
    General Johns.
    General Johns. Yes, sir. What we have done by going to the 
new scenario is the two near-simultaneous, as you said very 
well, spot-on, have been adjusted. And so that then adjusts how 
much airlift we have to have to meet that requirement.
    So as the strategy has been adjusted, then the capacity we 
need to meet that strategy has come down. So that is the 
foundation of what we are doing here.
    Mr. Coffman. Okay. So that allows you to make the cuts that 
are before us today. It is the mere fact that we have changed 
our strategy, that we have downsized our strategy; so therefore 
you have downsized the force accordingly.
    Is that correct, then?
    General Johns. Yes, sir, that is correct.
    Mr. Coffman. Okay. Then go back. Are there any other 
areas--okay, we talked about, I think, is it the C-130--I am 
sorry--what was the area again that we were reducing the Guard 
and Reserve Component?
    General Johns. We are actually reducing C-130s, C-5s, KC-
135s and C-27s. All four are coming down in the Guard and 
Reserve Component.
    Mr. Coffman. Okay. And then tell me, is there--on that 
reduction, is there a commensurate reduction, then, in the 
Active Duty side on that?
    I think you mentioned in which one--where was the growth in 
the budget?
    General Johns. There is a very small reduction on the 
Active Duty side of the tanker. That is very small. It is three 
aircraft, I believe. So the rest of the Active Duty stays where 
it is, except in the C-130, where we are growing that by three 
units, three squadrons.
    And the reason the Active Duty stays where it is, their 
dwell-to-deploy, how much I am asking them to be deployed right 
now is so high that, if I took down the Active Duty any 
further, I would basically--their dwell-to-deploy would be 
worse than a one-to-one. I am trying to get them to one-to-two.
    So there is so much demand. It is just about trying to 
balance the Active and the Guard at this time.
    Mr. Coffman. Well, here is the thing. And I think that 
that--where I might differ with you on that, because I think 
there is a fairly significant savings by being able to rely on 
the Guard and Reserve more.
    And so we have phased out of Iraq. We are phasing down out 
of Afghanistan. And what we have seen is a tremendous 
willingness upon the Guard and Reserve to do some very short-
term deployments.
    I think the Guard in my home state goes--the Air Guard has 
been going on 4-month deployments.
    And I think there is a willingness, even though the pace 
will slow, to do some of that, and not to go back to the status 
quo ante, when we are a strategic versus and operational 
reserve in the Guard and Reserve.
    So I think, really--I really question the direction that we 
are going, that it is not--not only is it not cost-effective 
but I think, by virtue of having higher personnel costs, we are 
eating into acquisition costs unnecessarily.
    So can any of you--General Wyatt and General Jones--can 
both of you comment on that?
    General Wyatt. Well, you know, the numbers that are in the 
PB13, I think this will, maybe, help put some numbers to what 
you are saying, Congressman.
    In the mobility Air Force, I think there was 124 total 
airplanes that were divested in PB13, 60 of those out of the 
Air National Guard, 61 out of the Air Force Reserve, and the 
three that General Johns mentioned out of the refueling fleet.
    It gets to a, I guess, an analysis of what the Federal 
warfight demand will be in the future. And if it is going to be 
high, then you might balance the force. If it is going to be 
high for a long time, you might balance the force more heavily 
in favor of the Active Component, as General Johns has 
described.
    If it is not going to be high for a long time, it would 
make sense, because the Air Guard is more cost-effective, 
especially when in garrison, to shift the balance that other 
direction.
    That is the debate that has taken place inside of the Air 
Force, as we go forward.
    Mr. Coffman. Let me just say quick, and I will go to you, 
General Johns, and that is that, you know, as--I am an Iraq War 
veteran, United States Marine Corps, and I have got to tell 
you, I don't think we are going to go down this heavy 
conventional footprint, nation-building path again.
    I think those days are over with. And if I have anything to 
do with it in the House Armed Services Committee, I will make 
sure that we don't go down that road again.
    And so I just don't see--if we are in a conventional 
conflict, absolutely, but I don't see us going down this road 
where we are going to have to mobilize so much of our Guard and 
Reserve, you know, for this kind of counterinsurgency nation-
building stuff.
    General Johns. Sir, if I may, one of the things I worry 
about is the dwell-to-deploy for the Guard and Reserve. We say 
we want to keep them on a one-to-five because they are 
traditional guardsmen and reservists, and they have full-time 
employers.
    Mr. Coffman. Sure.
    General Johns. So I don't have mobilization authority for 
much of what we do. So they go to their employer and say, ``The 
Air Force needs us; I am going again. The Air Force needs us; I 
am going again.'' And it is to Haiti and it is a Katrina and it 
is a Rita and it is a Tomodachi.
    The employers then put some pressure on those folks, 
because I visited 121 units--I have 16 units left to go to see 
all the Guard and Reserve units that do our business--and talk 
to them and listen to them, and I am concerned about their 
ability to continue to support, for long terms--not this year 
or next year--but when the economy turns and they all have all 
have good jobs and they keep going back to their employer.
    Well, they have pressure on them that they can't support 
beyond the one-to-five dwell-to-deploy. The tankers right now, 
sir, in the Guard and Reserve are at a one-to-3.8 dwell-to-
deploy. They are surging, and every day we call on them and 
they do marvelous things.
    But can we sustain this for the health of their continued 
support to the Air Force and our Nation? That is what we are 
trying to balance here.
    Mr. Coffman. And just one last thing, Mr. Chairman.
    And I know we have got to find where that balance is. Let 
me just say that the--and I need to have that discussion with 
my Guard back home. I mean, the morale is high. Retention is 
high. You know, they seem to love what they do. And so I would 
like to talk to them.
    But you know, the Israeli military is on a constant war-
footing and they rely--if they had the ratio of Active Duty to 
Guard--to their Reserve equivalent that we have, they would 
bankrupt the country overnight. And yet they seem to maintain a 
war-footing and rely on their equivalent of the Guard and 
Reserve.
    I yield back, Mr. Chairman.
    Mr. Akin. Thank you.
    All good questions; I thank you all for helping us out 
here.
    I had just a couple of follow-ups. First of all, this is a 
little bit more parochial, General Wyatt. We just talked about 
losing a couple of hundred people out of the state of Missouri.
    First of all, are there any kinds of provisions--you have 
got some people that have been serving honorably and well for 
some period of time, and all of a sudden they hit the bricks. 
Anything we can do to help them out?
    General Wyatt. Currently working through OSD, I think, or 
maybe some legislative proposals--that would help us.
    Our big challenge in the Air National Guard in fiscal year 
2013 is the fact that we lose 5,100 of those Air National 
Guardsmen. Our end-strength is reduced that much. We also have 
some re-missioning to the tune of about another 3,200.
    So it is essential that in order to hang onto these highly 
experienced, highly skilled people that the taxpayer has 
invested a lot of money in, there are some things that the Air 
National Guard and the Air Force supports that would help us as 
we go forward; things like as an individual maybe is 
terminated, extending their TRICARE benefits for a little bit 
longer to allow them to make that transition.
    Perhaps allowing the Air National Guard to pay for PCS 
[Permanent Change of Station] moves so that if an individual 
loses a job in a particular state, but there is one that is 
open, it is a lot cheaper to move that individual with PCS 
funds, as opposed to recruit and go out and retrain a new 
individual.
    There are things like allowing a guardsman a little extra 
time to exercise the GI Bill benefits that they have earned, 
not changing the eligibility or qualification requirements for 
the GI bill, but allowing them a little bit more extra time to 
exercise those benefits.
    Mr. Akin. So we can give people some options anyway and the 
possibility is they might be able to find this. Of course, if 
we are dropping--what did you say, 5,000 people----
    General Wyatt. It is 5,100 in fiscal year 2013. It is a 
pretty steep drop and that is why----
    Mr. Akin. Yes, so they are all going to be looking for 
probably a limited number of openings if somebody might retire 
or something like that. It is going to be hard to--you are not 
going to get all 5,000 of them back, just some.
    General Wyatt. Yes, sir.
    Mr. Akin. Yes, okay.
    General Wyatt. These benefits that I am talking about would 
obviously not apply across the board.
    We do have some individuals who will retire when given an 
option to transition into another aircraft, if they have 
several years in, they may have said, ``Hey, I have done my 
fair share; it is time for me to retire.'' So some of those 
will fall out of our ranks through natural attrition, but we 
would need some tools to help us----
    Mr. Akin. I think we are just getting the first taste of 
what some of the medicine that we are putting together here in 
Congress. And obviously, people on this committee I think even 
from both parties are not very happy with where we are going, 
and that is not even talking sequestration.
    So there is a great deal of angst here, but some limited 
degree that we know of what we can do to try and fix it. We are 
going to try, but that is where we are.
    Thank you for that. And let me see if there is anything 
else.
    The other thing is, you know, this idea of pivoting, you 
know, to move further away from America, so therefore don't 
need as much airlift. Somehow, the logic of that seems a little 
strained. You know, I appreciate trying to sell some new change 
and put a good spin on it, but I remain a little bit skeptical. 
The further we have to go, it seems like to me it is going to 
be more airlift.
    I think that is pretty much got things covered, unless you 
had a follow-up or something? No.
    Well, gentlemen, thank you for being here today and the 
professionalism. And you got the answers for us. It is very 
helpful, but we are grumbling a little bit.
    Thank you.
    [Whereupon, at 4:57 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 7, 2012
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2012

=======================================================================

      
                     Statement of Hon. W. Todd Akin

     Chairman, House Subcommittee on Seapower and Projection Forces

                               Hearing on

Assessing Mobility Airlift Capabilities and Operational Risks Under the 
                     Revised 2012 Defense Strategy

                             March 7, 2012

    I'd like to welcome everyone to the first hearing of the 
second session of the 112th Congress for the Seapower and 
Projection Forces subcommittee. I look forward to continuing 
our bipartisan efforts that have been a longstanding tradition 
of this subcommittee in providing our service men and women 
with the best equipment possible in this most challenging 
budget environment.
    Testifying before us today are representatives from the Air 
Force, Army, and Government Accountability Office. We have:

    <bullet> LGeneral Ray Johns, Commander of Air Mobility 
Command;

    <bullet> LLieutenant General ``Bud'' Wyatt, Director of the 
Air National Guard;

    <bullet> LMajor General Jim Barclay, Deputy from the Office 
of the Army Deputy Chief of Staff of the G-3-5-7;

    <bullet> LMajor General Chris Bogdan, KC-46 Tanker Program 
Manager; and

    <bullet> LMr. Cary Russell, Acting Director for GAO's 
Defense Capabilities and Management Directorate.

    Gentlemen, welcome, and thank you for your many years of 
service providing leadership to those that enable our military 
to be the finest in the world.
    Today, we're here to assess the increased risk incurred 
within the airlift and tanker mobility portfolios of the Army 
and the Air Force as a result of the President's April 2011 
initiative calling for continued reductions to the defense 
budget. As a result, the fiscal year 2013 budget request for 
DOD is $45.3 billion, or 8 percent below, the planned fiscal 
year 2013 budget submitted in last year's fiscal year 2012 
request.
    The end-state consequences resulted in divestment of 150 
aircraft from air mobility programs and will even force the Air 
Force to fly brand-new C-27 Joint Cargo Aircraft directly from 
the production line to the ``boneyard'' in Arizona this year.
    Furthermore, this new budget-driven defense strategy 
negates 2010 QDR scenarios developed just 2 years ago that were 
used to right-size airlift programs in anticipation of the 
threats and contingencies that the U.S. should be prepared for 
in the 2016-and-beyond time period. Nothing to date has 
occurred over the last 2 years indicating that the world has 
gotten safer or that the foreseeable operations tempo of our 
military will significantly decrease to justify such a large 
reduction of force structure. A smaller force structure 
operating under the same operational tempo only leads to our 
military wearing out their equipment quicker than planned. Just 
ask the Navy . . . they have 285 ships today, but currently 
operate them as if they had a fleet of 350.
    The next threat around the corner that is certainly 
predictable is budget sequestration. The $487 billion in cuts 
imposed upon the defense budget already concern me, and I 
certainly do not support the devastating effect that 
sequestration will have on our national security come this 
January. It makes no sense to me why some believe that 
penalizing defense, which is only 20 percent of our 
discretionary budget, an additional $500 to $600 billion 
dollars through sequestration is acceptable policy. The only 
outcomes from such a mindset is a guarantee that we'll move 
towards becoming a regional power and open a global void that 
another rising power will most certainly fill. I ask our 
witnesses to please help the subcommittee understand what 
impact sequestration will have to your respective areas of the 
DOD budget.
    Gentlemen, thank you again for being with us today and we 
look forward to your testimony.

                    Statement of Hon. Mike McIntyre

  Ranking Member, House Subcommittee on Seapower and Projection Forces

                               Hearing on

Assessing Mobility Airlift Capabilities and Operational Risks Under the 
                     Revised 2012 Defense Strategy

                             March 7, 2012

    I would like to thank all of the witnesses for appearing 
here today and for their service to the country.
    Given the number of recently announced reductions, it is 
important for us to have a clear understanding of what the 
airlift requirements are to meet the new Defense Strategy. With 
the retirement of all 27 C-5As, the elimination of the entire 
C-27J fleet and the retirement of 65 C-130s, I am concerned 
about whether or not we have the mobility resources required to 
meet current and future global demands.
    While there will be a drawdown in the overall end strength 
of the ground forces in the coming years, there will also be a 
shift of resources to the Asian-Pacific Area of Responsibility 
that will require increased support. My understanding is that 
many of these shifts will begin in the coming years while our 
commitments to the current conflict in Afghanistan remain. I am 
interested in hearing how this strategic shift combined with 
our current commitments will impact mobility demands.
    I am anxious to hear from the witnesses about the decision 
to terminate the C-27J program and retire all the current 
aircraft we have already bought and paid for. A clarification 
of the assumptions that were made in this process and how the 
Air Force plans to fulfill this requirement would be helpful.
    With regard to the KC-46 Tanker replacement program, I am 
encouraged to see signs that the program is progressing in a 
positive direction. Recent briefings to committee staff show 
both low risk in the areas of cost and technical performance 
and moderate risk in schedule performance. I know that the KC-
46 program office is working diligently to keep the program on 
a stable track and avoid any design or contract changes that 
could potentially delay delivery and allow for increased cost.
    Again, I want to thank all the witnesses for appearing here 
today and I look forward to hearing your testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 7, 2012

=======================================================================


             RESPONSE TO QUESTION SUBMITTED BY MR. GRIFFIN

    General Johns. The Future Year Defense Plan (FYDP), FY13-FY17, cost 
savings from terminating C-130 Avionics Modernization Program (AMP) and 
initiating the ``Optimize Legacy C-130 Communication, Navigation, 
Surveillance/Air Traffic Management (CNS/ATM)'' program is $2.3B. 
Additionally, when adding the ``To Complete'' cost of AMP in the FY12 
PB to what the Air Force has funded in the FY13PB for CNS/ATM, the Air 
Force identified a total cost savings of $3.5B in investment dollars.
    By going with the new Optimize Legacy C-130 CNS/ATM, which retains 
the navigator position, the Air Force took into consideration that we 
would lose the mission personnel ``cost savings'' of $482M in base year 
dollars (reference 31, Dec 2010 C-130 AMP Selected Acquisition Report 
(SAR) to Congress) vice AMP.
    Furthermore, the 2010 SAR identified that there were no other life 
cycle costs savings by continuing with AMP. The SAR identified an 
expected cost increase in both Unit Level Consumption ($513.4M Base 
Year dollars) and Sustaining Support ($157.7M Base Year dollars) for 
AMP modified aircraft.
    Lastly, the termination liability for C-130 AMP is $5.1M. [See page 
20.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN
    General Johns. There are 1,115 CONUS airfields in the AMC GDSS 
Airfield Database (ASRR), and of those, only 30 are suitable for C-27s 
and NOT suitable for C-130s (2.6% of the database). [See page 22.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. YOUNG
    General Johns. The MCRS 2016 was accomplished in 2010 using three 
cases; each consisting of OSD approved warfighting scenarios. Revised 
strategic guidance to the scenarios superseded one of these cases, and 
the Air Force used the two cases consistent with the new strategic 
guidance to shape mobility force structure decisions.
    The RAND ``U.S. Air Force Intra-theater Airlift Requirements for 
Direct Support Missions for the U.S. Army'' study was also accomplished 
in 2010 and analyzed the direct support to the US Army requirements. 
This was a ``platform-agnostic'' analysis that noted C-130s could 
perform the mission at least as well as the C-27J. It used a 
warfighting scenario that was a subset of those used in the MCRS to 
determine a range of aircraft required to meet this mission set.
    The Joint Staff also conducted a force structure study called 
Operational Availability 12, or OA-12. While this Joint study focused 
on the combat air forces, Headquarters Air Force A9, Studies and 
Analyses, Assessments and Lessons Learned Directorate, used the force 
planning construct from OA-12 to further analyze the mobility force 
structure subsequently informing the Service's force structure 
decisions.
    Finally, the Office of Secretary of Defense's Cost Assessment and 
Program Evaluation Office conducted an independent airlift study that 
took a warfighting scenario consistent with the new strategic guidance 
and analyzed the strategic airlift fleet force structure, ultimately 
validating the strategic airlift force structure the Air Force had 
developed.
    The Air Force has provided copies of the MCRS 2016 and RAND Direct 
Support Mission studies for review and briefed the classified analysis 
summarizing the impact of OA-12 on the mobility fleet to multiple 
groups of House and Senate PSMs and MLAs. We stand ready to provide 
additional briefings as necessary. The AF does not have the final CAPE 
briefing or report to provide. [See page 16.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 7, 2012

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. AKIN

    Mr. Akin. The mobility aircraft inventory will decrease 
significantly over the next 3 years as a result of the new defense 
strategy requirements. The Air Force will decrease its strategic 
airlift to 275 aircraft, tactical airlift to 318 aircraft, retired 20 
KC-135 tankers, and the Army plans to divest itself of 42 C-23 tactical 
airlift aircraft. However, the current operational tempo, ongoing 
operation and forecasted threats, may not be conducive and align to 
coincide with the new strategy and the different planning assumptions 
used to size the force structure within that strategy. In your opinion, 
what risk will we incur in meeting future mobility requirements with a 
reduced mobility aircraft force structure if the planning assumptions 
within the new defense strategy do not materialize?
    General Johns. The Air Force plans to reduce the strategic and 
theater airlift fleets by about 10% and the tanker fleet by about 5%. 
The FY13 PB request air mobility fleet will be a more modern and 
reliable fleet that retains significant capacity and capabilities. If 
the planning assumptions within the new defense strategy do not 
materialize, there is a risk that airlift and air refueling support 
will not be available to the degree desired. Airlift flows could be 
delayed and air refueling support could be diminished in one or more 
theaters of operations. The impact can be mitigated by committing air 
mobility resources to a large scale operation in one region while 
retaining a lesser capability to deny the objectives of an 
opportunistic aggressor in a second region. At the end of the day, the 
Nation is retaining a capable array of air mobility assets, and our 
forces will not be defeated on any battlefield for lack of air mobility 
support.
    Mr. Akin. In the February 2012 Air Force White Paper provided to 
Congress outlining the Air Force's fiscal year 2013 force structure 
reorganization, the Air Force states that ``although the U.S. has 
removed all combat forces from Iraq and the new strategic guidance 
reduces the steady state requirement for ground forces, we expect Air 
Force steady state rotational requirements to remain nearly constant, 
or perhaps increase, under the new strategy.'' Given the anticipated 
increase in Air Force rotational requirements, does it make sense to 
reduce our airlift inventory until we're able to determine what the new 
rotational ``baseline'' will be?
    General Johns. Based on the January 2012 Defense Strategic Guidance 
analysis indicates that an intra-theater fleet of 318 C-130s and an 
inter-theater fleet of 223 C-17s and 52 C-5Ms will meet the demand of 
the fully mobilized wartime surge scenarios. The forecast that steady-
state rotational requirements within the wartime scenarios will remain 
constant, or perhaps slightly increase, does not indicate the need for 
larger overall fleets, but does point to the need to ensure the active 
duty/air reserve component mixes within the airlift fleets are 
sufficient to meet rotational deployment demand without a higher 
reliance on mobilization of reserve component forces. This is why the 
Mobility Air Force fleet reductions outlined in the FY13 PB request 
attempt to balance active duty and air reserve component force 
structure.
    Mr. Akin. General Schwartz briefed the committee during a briefing 
on January 25, 2012 that his greatest concern with the new defense 
strategy is that the Air Force may not have the capacity in the 
mobility aircraft and combat aircraft fleets to execute the new 
strategy. Can you please quantify for the committee the risks incurred 
with the significant reduction to the mobility airlift fleet and what 
it may mean in meeting warfighting requirements of the combatant 
commanders?
    General Johns. The Air Force plans to reduce the strategic and 
theater airlift fleets by about 10% and the tanker fleet by about 5%. 
The FY13 PB request air mobility fleet will be a more modern and 
reliable fleet that retains significant capacity and capabilities. If 
the planning assumptions within the new defense strategy do not 
materialize, there is a risk that airlift and air refueling support 
will not be available to the degree desired. Airlift flows could be 
delayed and air refueling support could be diminished in one or more 
theaters of operations. The impact can be mitigated by prioritizing air 
mobility resources to theaters of our choosing and delaying full 
support to others. At the end of the day, the country is retaining a 
capable array of air mobility assets, and our forces will not be 
defeated on any battlefield for lack of air mobility support.
    Mr. Akin. The Air Force proposes making a significant adjustment of 
mobility force structure not only for aircraft inventory numbers, but 
also closing units and standing up new units around the country. The 
total cost of this reorganization of mobility locations, we've been 
told, is approximately $603 million dollars. Why is the Air Force 
incurring such cost to realign units with different mobility missions 
and locations around the country?
    General Johns. While cost savings are part of the decision-making 
process, the most important factor is the Air Force's ability to 
provide the capabilities required by the new Defense Strategic 
Guidance, ``Sustaining US Global Leadership: Priorities for 21st 
Century Defense.'' This new strategy directs the services to build a 
leaner, more flexible, and technologically advanced force. As a result, 
the Air Force is rebalancing our Total Force to match the capability 
and capacity requirements of the new guidance. The proposed Reserve 
Component force structure reductions were determined using a deliberate 
and collaborative process which leveraged careful analytical review of 
warfighting scenarios consistent with the new strategic guidance. Two 
decades of military end strength and force structure reductions in our 
active duty component have changed the active and reserve component 
mix, and achieving the appropriate active and reserve component mix is 
critical to sustaining Air Force capabilities for forward presence and 
rapid response, as well as meeting high rate rotational demands with a 
smaller force.
    To meet this end, the Air National Guard (ANG) developed five 
Capstone Principles to help guide this transition: allocate at least 
one flying Wing with ANG equipment to each state; recapitalize 
concurrently and in balance with the Regular Air Force; manage ANG 
resources with ANG people; adopt missions that fit the militia 
construct; and, build dual-use capabilities (Emergency Support 
Functions) relevant to the states. Similarly, our Reserve Component 
used the following four principles: ensure aircraft reductions do not 
negatively impact operational support to Combatant Commands; ensure 
force structure movements do not create any new Air Force bills; ensure 
risk is minimized by optimizing crew ratios to exploit expected 
increases in mission capability rates; and, consider locations that 
continue to have an Air Force mission due to the presence of another 
Air Force Component. This Total Force approach allowed us to maintain 
the right Active/Air Guard/Reserve mix which will allow us to meet our 
operational demands with a leaner force while taking care of our 
Airmen.
    Mr. Akin. In your written testimony, it states that ``with the 
requirements for two near simultaneous large-scale land campaigns 
removed from the 2012 Defense Strategic Guidance and in turn the most 
demanding 2016 Mobility Capability and Requirements Study scenario no 
longer considered, the demand on the air mobility fleet is greatly 
reduced.'' In your opinion, why has the Department determined that the 
scenarios modeled just two years ago for the year 2016 time period are 
no longer relevant in maintaining mobility airlift capabilities for?
    General Johns. The process of developing a national military 
strategy includes selecting potential adversaries, defining the level 
of threat they represent and the time span in which they will have to 
be engaged with. In each of these elements there is a range of values 
that can be rationally set. The threat scenario posed in the national 
military strategy is entirely rational and I fully support the budget 
devised to field the capabilities necessary to support that strategy.
    Mr. Akin. The 2010 Quadrennial Defense Review concluded that the 
effective use of the Guard and Reserves ``will lower overall personnel 
and operating costs, better ensure the right mix and availability of 
equipment, provide more efficient and effectivce use of defense assets, 
and contribute to the sustainability of both the Active and Reserve 
components.'' However, the force structure adjustments that the Air 
Force made to the mobility portfolio actually increased the portion of 
force structure located within the active component under the new 
strategy. Given that this contradicts the 2010 QDR assessment of Guard 
and Reserve benefits, why is it that the Air Force chose to reorganize 
the mobility force structure in this manner?
    General Johns. The key to the QDR is the ``effective'' use of the 
Guard and Reserves. We are at a point now in our force structure where 
roughly 65% of our C-130 and KC-135 capability resides in the reserve 
component. We do not believe we can continue to meet the day to day 
combatant commander requirements with this force structure without 
continued mobilization authority and we cannot plan to have that 
authority forever. It is important to note that the force structure 
adjustments to the mobility portfolio do not increase the number of 
assigned aircraft to the active duty. The active duty will stand up 
active duty units co-located with existing ARC units leveraging total 
force capabilities.
    Mr. Akin. In your opinion, is the Air National Guard's equipping 
strategy effective for an operational reserve? Does the current Air 
Force procurement plan for mobility aircraft adequately address aging 
aircraft issues in the Air National Guard? Please explain.
    General Johns. Yes. The equipping strategy for the Mobility Air 
Forces effectively covers the Air National Guard, Air Force Reserve 
Command, and the Active Duty. The C-17, our most modern inter-theater 
airlifter, is based across ANG, AFRC, and AD locations. The most 
modernized C-5s, the C-5M, will be based at AFRC and AMC locations. The 
KC-135R, currently being equipped with the Block 45 modification, is 
based across ANG, AFRC, and the AD, with the majority in the ANG and 
AFRC. The C-130J is based across ANG, AFRC, and AD locations. The 
majority of the newest variants of the legacy C-130 fleet reside in the 
ANG and AFRC. We plan to base the KC-46A, our newest tanker, across the 
Total Force IAW the SecAF's Strategic Basing Process.
    Mr. Akin. How do you plan to help the Air National Guard mitigate 
projected mobility aircraft shortfalls to ensure their units retain 
capability for both Title 10 federal and Title 32 state executed 
missions?
    General Johns. The entire mobility air forces, notwithstanding 
their unit or component stand ready to assist any state in times of 
emergency. The 2010 NDAA created streamlined processes for the federal 
government to provide DOD resources to the states. No state, even those 
without an airlift unit should think they won't get the assistance they 
require.
    Mr. Akin. O&M costs (flying hour costs) vary by aircraft type as do 
the overall costs to operate any given aircraft between the Active Air 
Force and the Reserve Component. If an aircraft costs more to fly but 
is flown less by more experienced pilots in the Air National Guard 
component, wouldn't it make fiscal sense to put those aircraft in the 
Air National Guard rather than the Active Air Force? And, wouldn't we 
get a longer lifetime out of those aircraft this way?
    General Johns. At the heart of this discussion about force 
structure should be the question of capability. When a reserve 
component unit is fully mobilized it brings similar capabilities at a 
similar cost compared to its active duty counterpart. However, we 
typically don't have mobilization authority for our day to day 
combatant commander requirements. The active duty unit provides the 
Nation that day to day capability. Also, in most instances the 
experienced aircrews that make up the reserve component started as 
inexperienced active duty aircrews. By design, the active duty is a 
feeder of experience into the reserve component. We need these aircrews 
to fly regularly to build experience when they are young; the active 
duty provides that opportunity. The Nation receives a tremendous value 
from the reserve component, but only because of the active duty 
investment up front. If we were to shift to a model where the majority 
of inexperienced aircrews entered directly into the reserve component, 
we believe over time the capability those units provide to the Nation 
would be greatly diminished.
    Mr. Akin. In your testimony, you state that ``the [Army's Direct 
Support/Mission Critical] mission is being accomplished with two C-27s 
and one C-130'', yet General Barclay's testimony contradicts this by 
stating ``the [Air Force's] direct support role does not fulfill 100% 
of the Army's requirement for time sensitive, mission critical cargo 
and personnel. The Army fills this gap with contract airlift and CH-47 
aircraft in Operation Enduring Freedom.'' When does the Air Force plan 
to assume 100% of the Army's Direct Support/Mission Critical airlift 
missions? Or, does the Air Force plan to never assume 100% of the 
missions? If not, why not?
    General Johns. The Air Force is committed to supporting the Army 
Direct Support/Mission Critical requirement. CENTCOM, the combatant 
command responsible for requesting forces has not requested the Air 
Force assume 100% of the Direct Support/Mission Critical mission for a 
variety of reasons.
    Mr. Akin. Given the reduced airlift inventory in both the Air Force 
and the Army, how would you assess the operational risk incurred with 
the Air Force meeting the Army's Direct Support/Missional Critical 
airlift mission in future contingencies and training operations?
    General Johns. The FY13 PB request allows for 48 C-130H/J aircraft 
to be available for the Direct Support/Mission Critical mission. We 
believe this is sufficient to meet previously established requirements.
    Mr. Akin. Currently, there are two C-27J aircraft deployed to 
support the Army's direct-support/time-sensitive cargo mission in 
Afghanistan, and the Air Force plans to deploy two more in the April to 
May timeframe. Can you provide the committee an update as to how the 
aircraft in theater are performing their mission and whether or not 
you've gotten any negative feedback from the warfighter's they are 
supporting?
    General Johns. Clarification: the Air Force will replace the two C-
27s in theater with two other C-27Js in April. There will still only be 
two C-27Js in theater.
    The C-27J has performed to expectations of responsiveness, 
reliability and performance since its deployment to support the US 
Army's Time Sensitive/Mission Critical cargo mission. The feedback on 
the C-130 aircraft performing this mission has been equally positive.
    Mr. Akin. What is the current reimbursable flying hour cost/per 
hour for DOD users stated in AFI 65-503, table A15-1 for the C-27J, C-
130H and C-130J aircraft for fiscal year 2012?
    General Johns. Per AFI 65-503, table A15-1, the current FY12 
reimbursement rate for DOD users of the C-27J is $1,299/flying hour, 
for the C-130H is $7,626/flying hour, and for the C-130J is $5,945/
flying hour.
    Mr. Akin. According to recent Operation Enduring Freedom data that 
the committee has received from the Department regarding C-27J current 
operations, 65 percent of the time C-27s have been tasked to move only 
1 pallet of cargo, and the remaining 35 percent of time, have been 
tasked to only move 2 to 3 pallets of cargo. In your professional 
opinion, would it be more efficient to move 1 to 3 pallets of cargo 
with either a C-130H or C-130J aircraft? If not, why not?
    General Johns. Given that a C-27 and C-130J are sitting on the ramp 
and a 1 to 3 pallet load of cargo needs to be moved, it is more 
efficient to use the C-27 to move that load. However, it is less 
efficient to establish an entire system to support the C-27 in order to 
move that 1 to 3 pallet load rather than using C-130s that are already 
in the fleet and can perform a wider array of missions with greater 
capacity. The issue with the C-27J is not the cost efficiencies of 
payload capacity, but with the forecast cost of continued procurement 
in conjunction with the overall infrastructure and sustainment costs of 
a separate fleet spread across multiple locations. The C-27J is an 
entire major weapon system (MWS) introduced into a fleet that has 
already been identified as surplus to need. An additional MWS entails 
another depot, another schoolhouse, another fleet of simulators, and 
new BOS tail associated with every beddown location. In today's 
fiscally constrained environment, the AF could no longer justify the 
overall cost for the C-27J's niche capability.
    Mr. Akin. The Air Force C-27 Analysis of Alternatives, revalidated 
in 2008, states that a fleet of 38 C-27J aircraft are needed to 
support, with high risk, 1 major contingency operation. Given that the 
new defense strategy focuses on only executing 1 major contingency 
operation, why would it not be prudent to keep at least 38 C-27Js, or 
more to reduce the assessed risk, in the inventory to meet warfighting 
requirements that were validated in the C-27 Analyis of Alternatives?
    General Johns. The more recent RAND study, ``Intratheater Lift-
Direct Support'' provided a range of tactical aircraft required for the 
TS/MC mission. It also concluded that the C-130 and C-27J were equally 
suited for executing the TS/MC mission. The FY13 PB request includes up 
to 48 C-130s for the TS/MC mission.
    Mr. Akin. The committee notes that the Air Force used the current 
Air National Guard basing strategy of 9 locations for 38 C-27J 
aircraft, with 4 aircraft at each to base, in the business case 
analysis that decided the fate of the program. In your professional 
opinions, is basing 38 aircraft at 9 locations an efficient plan, and 
if not, did you look at any other basing strategies that would enable a 
more efficient and cost-effective program?
    General Johns. The Service Cost Position, $308M per aircraft, is 
based upon a rule set by DOD to account for all cost elements 
associated with the program. Specifically for C-27J, it includes a 4 
aircraft based at 9 bases, plus 2 aircraft for formal training and the 
all associated Air National Guard manpower. This Service Cost Position 
was signed by the AF Service Acquisition Executive and the Air Force 
Financial Management and Comptroller back on 24 May 2011 for the full-
rate production decision milestone. The AF is currently completing a 
business case analysis of the C-27J to the C-130, directed by the 
Senate Armed Services Committee. The cost benefit analysis accomplished 
for the SASC report is a comparative analysis between the C-27J and the 
C-130 and applied a completely different set of assumptions from the 
Service Cost Position; the two efforts are not directly comparable. The 
Air Force performed cost excursions to compare the C-27J life-cycle 
costs to those of the C-130 by examining analytic excursions of 
different basing, manning, and unit size options. We will provide that 
to the committees once completed.
    The analysis demonstrated that for a similar or even reduced cost, 
the C-130 offers greater capability to support the warfighter, 
therefore the AF made the difficult decision to cancel the C-27J 
program. The remaining 318 C-130s retained in the fleet have sufficient 
capacity and capability to meet both the Direct Support and General 
Support missions in the new strategic guidance. Buying or retaining 
excess capacity in the intra-theater airlift fleet will disadvantage 
our ability to balance risks across the Air Force core functions.
    Mr. Akin. How many parts and avionics does the C-27J have in common 
with the C-130 aircraft? Was this considered during the cost evaluation 
of depot maintenance stand-up for the C-27J aircraft?
    General Johns. The C-27J and the C-130J share a common heritage 
based on Lockheed-Martin's membership on the original C-27J design 
team. Based on this heritage, there are avionics and engine components 
that are common to both platforms. However, Lockheed split away from 
the C-27J team several years ago and the number of avionics and engine 
components that are common to both platforms has slowly decreased as 
the C-130J configuration has evolved. At this time, there are 
approximately 30 avionics and engine components that are common to both 
platforms (and no common airframe parts). The cost estimate for the C-
27J did not include costs for the depot activation for the common 
avionics components. For the common engine components however, the Air 
Force assumed a strategy that shares depot activation costs between the 
C-130J and the C-27J, as well as with the CV-22 and the RQ-4 (since 
these last two platforms also have common engine components with the C-
27J). Therefore, the cost estimate allocates one sixth of the depot 
activation cost for these common engine components to the C-27J 
program.
    Mr. Akin. The Air Force plans to send 21 brand new C-27J aircraft 
to the boneyard. What is the Air Force's plan for the aircraft once 
they reach the boneyard?
    General Johns. The Air Force is currently reviewing potential 
options for divesting the C-27J fleet. In accordance with DOD guidance, 
the Air Force will offer these aircraft to Military Services, DOD 
activities, DOD Law Enforcement Support Office, Security Assistance 
agencies, and other Federal agencies before they would be put into 
storage at the 309th Aerospace Maintenance and Regeneration Group 
(AMARG), Davis-Monthan AFB, NM. If the aircraft are not acquired by any 
authorized agency, the C-27Js will be placed in long-term, inviolate 
storage.
    Mr. Akin. Has the Air Force done any preliminary analysis of what 
the airlift requirement will be for the new Asia-Pacific force laydown 
structure that is being proposed? If not, how will it be determined?
    General Johns. The Air Force has no preliminary analysis of what 
the airlift requirement will be for the new Asia-Pacific force laydown 
structure that is being proposed. AMC plans to participate alongside 
USTRANSCOM, OSD and the combatant commanders to conduct a mobility 
study that will determine this requirement.
    Mr. Akin. The Major Capabilities Requirements Study-16 study 
assumed that DOD would maintain 3 prepositioned locations of military 
stock equipment. Now that DOD plans to downsize the number of locations 
of prepositioned stock equipment to 2 locations. What does this do in 
terms of adding additional requirements for strategic aircraft during 
the Phase 0 and Phase 1 of a major contingency operation?
    General Johns. The Mobility Capabilities & Requirements Study 2016 
(MCRS 16) began with the National Military Strategy (NMS) and 
determined the capabilities and requirements needed to deploy, employ, 
sustain and redeploy joint forces in order to accomplish that strategy. 
While it does take into account locations of prepositioned stock, it is 
not safe to assume there is a linear relationship between numbers of 
prepositioned stock locations and the size of the strategic airlift 
fleet. The multi-modal modeling assesses airlift, aerial refueling, 
sealift, surface transportation, ashore and afloat prepositioning, 
forward stationing, and infrastructure. It puts these multimodal tools 
against the time phased force deployment plan. Ultimately, for planning 
purposes we run excursion upon excursion against scenarios anticipated 
by the NMS and determine the optimum force structure to accomplish that 
strategy with a given level of risk.
    While MCRS-16 analyzed requirements of an older strategy which 
called for a peak capacity of 32.7MTM/D, one of the study's scenarios 
is sufficiently consistent with the new strategy to inform our force 
structure and indicates a 29.1 MTM/D capacity is sufficient. Our 
proposed mobility air fleet has a capacity of 30.4 MTM/D, which meets 
this potential demand with a small amount of margin in reserve. This 
fleet size and mix allows us to execute the National Military Strategy 
at an appropriate level of risk.
    Mr. Akin. In your testimony, you state that ``the KC-135 continues 
its Block 45 avionics upgrade and 95 aircraft will be upgrading their 
engines for great fuel efficiency.'' Is the Air Force re-engining the 
KC-135 fleet? If so, what is the total cost of this upgrade and why are 
the current engines not sufficient?
    General Johns. No, the Air Force is not re-engining the KC-135 
fleet. However, starting in FY13 we will be upgrading engines with up-
to-date technology during normal overhaul operations to gain fuel and 
sustainment efficiencies. The KC-135 engines have been extremely 
reliable; in fact, 56% of engines (988 of 1741 engines) have never 
required a depot shop visit and have been on wing an average of 9500 
flying hours. However, because they have stayed on wing so long, they 
have fallen technologically behind their commercial counterparts, and 
are starting to reach an age where maintenance issues are becoming more 
common. Utilizing spares manufactured with the latest technology 
improves fuel efficiency and provides long-term sustainment cost 
avoidance by reducing the number of required future overhauls. We plan 
to upgrade approximately 93 engines in FY13 at a cost of $29M. The AF 
business case analysis assumed the entire fleet would be upgraded over 
approximately 16 years (dependent on future force structure decisions), 
at a total cost of $278M (constant FY11 $). Expected benefits are a 
total of $1.3B in avoided engine overhaul costs (beginning FY25) and 
56M gallons of fuel saved through 2046--a return on investment of 
greater than 5 to 1, with a break-even point of 2027.

    Mr. Akin. The mobility aircraft inventory will decrease 
significantly over the next 3 years as a result of the new defense 
strategy requirements. The Air Force will decrease its strategic 
airlift to 275 aircraft, tactical airlift to 318 aircraft, retired 20 
KC-135 tankers, and the Army plans to divest itself of 42 C-23 tactical 
airlift aircraft. However, the current operational tempo, ongoing 
operation and forecasted threats, may not be conducive and align to 
coincide with the new strategy and the different planning assumptions 
used to size the force structure within that strategy. In your opinion, 
what risk will we incur in meeting future mobility requirements with a 
reduced mobility aircraft force structure if the planning assumptions 
within the new defense strategy do not materialize?
    General Wyatt. The value the Mobility Air Forces (MAF) bring to the 
nation cannot be overstated. If one looks around the world, what 
separates us from the other nations is we can project power and sustain 
it, anywhere and at any time. The Air National Guard (ANG) provides 
crucial capabilities vital to defending our nation and supporting our 
citizens. We need to ensure America properly resources and 
recapitalizes our ANG MAF to be prepared to respond to events in an 
uncertain future. The MAF mission is a good fit for our Citizen Airmen; 
it is a good fit for America because our inherent cost savings can be 
leveraged to preserve greater capacity and capability to help preserve 
America's mobility forces. Reversibility is key should the planning 
assumptions within the new defense strategy not materialize. If the 
assumptions for the new strategy prove to be wrong and we need to 
regrow the mobility community, we will, initially, have reduced our 
ability to regenerate that mobility force structure. Once force 
structure is cut, it will take a significant amount of time and money 
to regenerate them. This is a calculated risk in that mobility force 
capacity allows our nation to hedge against future uncertainty and 
changing assumptions. I haven't seen analysis detailing what mobility 
requirements would be if the Army and Marine Corps in fact need to grow 
in response to a changing security environment. But, in my opinion, the 
ANG needs to recapitalize our mobility fleet concurrently and 
proportionately with the Regular AF, to ensure we preserve the greatest 
capability for our nation at the greatest value to the American tax 
payer. If we leverage the cost-effectiveness of the Reserve Component 
mobility forces to the maximum extent possible, we can retain greater 
flexibility to regenerate force structure if needed to support a larger 
ground force.
    Mr. Akin. Under the new defense strategy, the Air Force has shifted 
its mobility ratio of aircraft inventory between the active and reserve 
components from 49% active and 51% reserve, to 54% active and 46% 
reserve. Historically, in your opinion, has it been more cost-effective 
to retain a majority of aircraft inventory in the active or the reserve 
components?
    General Wyatt. Recent RAND analysis shows that the Reserve 
Component (RC) has lower fixed and variable flying hour costs*. Hence, 
it is our belief that it is more economical to size the force structure 
to use the RC until their maximum capacity is reached before employing 
the Active Component (AC). Furthermore, because RC personnel are 
generally more experienced than their AC counterparts, we believe the 
RC is able to maintain a trained, ready, and available workforce at 
less cost.
    *Costs of Operating AC and RC, RAND, Project Air Force, March 2012
    a. F-16 squadron fixed costs (average): $120M Active Duty/$39M ARC 
b. F-16 squadron variable cost/flight hour (average): $24,400 Active 
Duty/$22,000 ARC c. C-130 squadron fixed costs (average): $168M Active 
Duty/$12M ARC d. 11 Primary Aircraft Assigned (PAA) C-130 squadron 
variable cost/flight hour (average): $31,797 Active Duty/$18,020 ARC
    Mr. Akin. In your written testimony, you state that ``the nation 
can maintain defense capabilities at less total cost through a careful 
and thoughtful balancing of Active and Reserve component forces.'' In 
your opinion, is the Air Force's current force structure plan for 
mobility aircraft appropriately balanced between the active and reserve 
components? If not, why not? What adjustments would you make if given 
the opportunity to do so?
    General Wyatt. The balance between the Active Component (AC) and 
the Reserve Component (RC) are dependent on several assumptions in 
light of the national strategy. Reversibility and affordability are key 
elements of the assumptions. The Fiscal Year 2013 President's Budget 
changed the Mobility Air Forces AC/RC mix from 51%/49% to 54%/46%.
    We need to ensure that Air National Guard (ANG) mobility aircraft 
are recapitalized concurrently and in proportion to active duty, to 
include the KC-46 and C-130Js. The ANG strikes a harmonious balance 
between affordability as an operational force, and reversibility as a 
surge-to-war force for large contingencies. Looking into the future, if 
analysis showed the federal war fight demand was going to be higher for 
an extended period of time, a force balanced more heavily in favor of 
the active component might be more desirable. If the demand was not 
anticipated to be higher for an extended period of time, it might make 
more sense to shift the balance in the other direction because the ANG 
is more cost effective.
    Mr. Akin. Understanding that the Air National Guard meets many 
active component deployment requirements through volunteerism of its 
forces, and not actual mobilization, if more force structure were moved 
into the reserve component, do you believe the Air National Guard could 
still meet active component deployment requirements through continued 
volunteerism in the long-term? Basically, is volunteerism sustainable 
in the long-run?
    General Wyatt. Yes, we expect volunteerism to be the norm; however, 
mobilization does provide our Guard members with some measure of 
protection with their employers. The Air National Guard (ANG) has shown 
a sustained ability to meet deployment requirements via volunteerism. 
Over the past three years, the ANG sourced approximately 75% of all 
Combatant Command requirements through volunteerism. Our view, and the 
belief of the Adjutants General, is that we can sustain the current 
levels of volunteerism indefinitely.
    Mr. Akin. What additional funds, if any, are needed in fiscal year 
2013 and beyond to improve the equipment readiness of Air National 
Guard mobility aircraft units that do not currently meet standards?
    General Wyatt. While the FY13 request meets our needs, should 
additional funds become available, the Air National Guard (ANG) has 
identified $13.3 million worth of additional requirements to meet the 
mission needs of the ANG mobility fleet.
    The additional requirements we have identified include:

    <bullet>$2.7 million for aircraft fixtures, test sets, maintenance 
stands, and ground handling trailers for C-5 aircraft.
    <bullet>$9.9 million for analyzers, cranes, fixtures, test sets, 
trailers, and wrenches for C-130 aircraft.
    <bullet>$735,683 for cable assemblies, fixtures, heaters, jacks, 
power supplies, ground handling trailers, and test sets for KC-135 
aircraft.

    These items would modernize cockpits for the Air Reserve Component 
C-130H fleet to comply with Communication/Navigation System/Air Traffic 
Management Requirements by FY 2025, and replace instruments which are 
obsolete and not available due to diminished manufacturing sources.
    Mr. Akin. O&M costs (flying hour costs) vary by aircraft type as do 
the overall costs to operate any given aircraft between the Active Air 
Force and the Reserve Component. If an aircraft costs more to fly but 
is flown less by more experienced pilots in the Air National Guard 
component, wouldn't it make fiscal sense to put those aircraft in the 
Air National Guard rather than the Active Air Force? And, wouldn't we 
get a longer lifetime out of those aircraft this way?
    General Wyatt. Recent RAND analysis shows that the Reserve 
Component (RC) has lower fixed and variable flying hour costs*. Hence, 
it is our belief that it is more economical to size the force structure 
to use the RC until their maximum capacity is reached before employing 
the Active Component (AC). Furthermore, because the RC has higher 
experience, we believe it is able to maintain a trained, ready, 
available workforce at less cost.
    Recently acquired high-cost platforms, the F-22 and the F-35, are 
both designed with an 8,000 flight hour service life requirement. On 
average, an Air National Guard (ANG) fighter pilot flies 30% fewer 
hours/year than an active duty pilot. This results in a longer airframe 
service life of approximately seven years, based on an annual average 
of 250 hours/fighter in the ANG and 325 hours/fighter in the AC. A 
longer service life directly reduces the required cost of future 
fighter recapitalization or expensive service life extension 
modifications.
    * Costs of Operating AC and RC, RAND, Project Air Force, March 2012
    a. F-16 squadron fixed costs (average): $120M Active Duty/$39M ARC 
b. F-16 squadron variable cost/flight hour (average): $24,400 Active 
Duty/$22,000 ARC c. C-130 squadron fixed costs (average): $168M Active 
Duty/$12M ARC d. 11 Primary Aircraft Assigned (PAA) C-130 squadron 
variable cost/flight hour (average): $31,797 Active Duty/$18,020 ARC
    Mr. Akin. Currently, there are two C-27J aircraft deployed to 
support the Army's direct-support/time-sensitive cargo mission in 
Afghanistan, and the Air Force plans to deploy two more in the April to 
May timeframe. Can you provide the committee an update as to how the 
aircraft in theater are performing their mission and whether or not 
you've gotten any negative feedback from the warfighter's they are 
supporting?
    General Wyatt. You are correct; we presently have two aircraft 
providing direct support in Operation Enduring Freedom. In April-May, 
we will complete our first unit rotation. Ohio's 179AW has led the way 
since July 2011 with our initial deployment. After serving 270 days, 
they will be replaced by Maryland's 135AG. We are not adding more 
aircraft during this rotational swap; instead, we are simply bringing 
the next unit into the fight. Our original plan, coordinated with Air 
Mobility Command, is to provide two additional aircraft to support the 
mission in late 2013.
    From the theater, we are receiving very positive feedback from the 
Army. The Army's 25th Combat Aviation Brigade issued a press release 
this past week that showed the positive effect the C-27J provides in 
closing the last tactical mile. The presence of the C-27J has allowed 
the Army to shift its general support airlift off its CH-47 fleet and 
allows them to focus their support on forward operating bases that are 
only accessible by rotary wing aircraft. The Army estimates that ``it 
has saved $30 million by conducting missions with the C-27J instead of 
the CH-47 Chinook.'' The aircraft is fulfilling the full range of 
intratheater airlift for the Combatant Command.
    Mr. Akin. According to recent Operation Enduring Freedom data that 
the committee has received from the Department regarding C-27J current 
operations, 65 percent of the time C-27s have been tasked to move only 
1 pallet of cargo, and the remaining 35 percent of time, have been 
tasked to only move 2 to 3 pallets of cargo. In your professional 
opinion, would it be more efficient to move 1 to 3 pallets of cargo 
with either a C-130H or C-130J aircraft? If not, why not?
    General Wyatt. The C-27J was originally planned to fulfill the Army 
intratheater airlift needs as the Service retired its C-23 Sherpa. In 
that same timeframe, the Air Force recognized that the same platform 
could be used to fulfill its Light Cargo Aircraft needs. The 
culmination has been to develop, field, and deploy an aircraft that 
leverages its smaller capacity to move smaller payloads in a more 
efficient and effective manner. Air Mobility Command's Air Mobility 
Master Plan 2012, November 2011, identified that the C-27J would add 
``a more efficient means to move small payloads, shorter distances, 
into austere locations.'' Since arriving in theater August 2011, our 
practical experience is that the aircraft has met this expectation. We 
are achieving Air Force efficiency in moving the smaller payloads with 
no loss of effectiveness to the Army.
    Mr. Akin. The committee notes that the Air Force used the current 
Air National Guard basing strategy of 9 locations for 38 C-27J 
aircraft, with 4 aircraft at each to base, in the business case 
analysis that decided the fate of the program. In your professional 
opinions, is basing 38 aircraft at 9 locations an efficient plan, and 
if not, did you look at any other basing strategies that would enable a 
more efficient and cost-effective program?
    General Wyatt. The current basing model construct was based on the 
model initially crafted by the Joint Program Office for the C-27J. At 
that time, the ANG had the ability to field and support the program 
under that basing concept. However, it is recognized that a 4 Primary 
Aircraft Assigned basing construct is not an efficient allocation of 
personnel or to support deployed operations. During the C-27J Full Rate 
Production discussions in 2011, we have concurred with Air Mobility 
Command and Headquarters Air Force that basing the 38 aircraft at seven 
bases vice nine would still allow the ANG to field the aircraft and 
fulfill its mission set. Other excursions at differing basing numbers 
have and can continue to be explored as this program evolves. Our goal 
would be to support a more efficient and cost-effective program.
    Mr. Akin. Within the Air Force's cost-benefit analysis when 
comparing the C-27 to the C-130H, were personnel, maintenance and 
operations costs estimated for the C-27 adequately captured based upon 
the differences between how the Air National Guard and active component 
Air Force activate and apply personnel and fiscal resources? Was the 
Air Force's C-27J Service Cost Position assumptions for unit personnel 
reflective of current and approved unit manning documents of the unit's 
that currently have C-27J fielded?
    General Wyatt. The Air Force's Service Cost Position is an estimate 
of what the total program cost could entail and is used to plan for all 
possible costs. The service cost portfolio was based on the program's 
original manpower estimate. As we began to convert units to their new 
mission, we paired and tailored our manning documents to achieve the 
current day needs. Subsequently, our unit manning is different than the 
original manpower estimate.
    Mr. Akin. How many parts and avionics does the C-27J have in common 
with the C-130 aircraft? Was this considered during the cost evaluation 
of depot maintenance stand-up for the C-27J aircraft?
    General Wyatt. The C-27J shares 456 common parts with the C-130J. 
This includes avionics and propulsion system parts. The C-27J shares 46 
common parts with other weapon systems.
    The C-27J Service Cost Position does take into account the parts 
and avionics commonality between the C-27J and the C-130J. The Cost 
Position assumes the depot process will leverage the three existing Air 
Logistics Centers processes. The C-27J's System Program Office has a 
Depot Working Group, and their charter is to continuously evaluate and 
identify how to leverage the existing depot systems, and to ultimately 
lower the aircraft's lifecycle sustainment costs.

    Mr. Akin. The mobility aircraft inventory will decrease 
significantly over the next 3 years as a result of the new defense 
strategy requirements. The Air Force will decrease its strategic 
airlift to 275 aircraft, tactical airlift to 318 aircraft, retired 20 
KC-135 tankers, and the Army plans to divest itself of 42 C-23 tactical 
airlift aircraft. However, the current operational tempo, ongoing 
operation and forecasted threats, may not be conducive and align to 
coincide with the new strategy and the different planning assumptions 
used to size the force structure within that strategy. In your opinion, 
what risk will we incur in meeting future mobility requirements with a 
reduced mobility aircraft force structure if the planning assumptions 
within the new defense strategy do not materialize?
    General Barclay. The United States Air Force is best suited to 
respond to this question.
    Mr. Akin. You state in your testimony that ``the direct support 
role does not fulfill 100% of the Army's requirement for time 
sensitive, mission critical cargo and personnel. The Army fills this 
gap with contract airlift and CH-47 aircraft in Operation Enduring 
Freedom.'' If the Air Force has the responsibility for executing the 
Army's Direct Support/Mission Critical airlift mission, why is the Army 
having to supplement the Air Force with contractor provided airlift and 
CH-47 helo aircraft to meet your requirements?
    General Barclay. The terrain over which OPERATION ENDURING FREEDOM 
is being conducted is challenging and austere. The time sensitive/
mission critical mission the ground commander has to execute is not 
always near an available airfield capable of landing fixed wing 
aircraft. These missions require rotary wing aircraft such as the CH-47 
and contract airlift both fixed and rotary wing. Although the agreement 
between the Air Force and Army on time sensitive mission critical cargo 
will not satisfy 100% the Army's requirement it will significantly 
reduce the reliance on contract air and free up CH-47s for tactical 
missions.
    Mr. Akin. How many dedicated aircraft does it take to support one 
heavy brigade combat team for the Direct Support/Mission Critical 
airlift mission in a major contingency operation, and how do you assess 
the Air Force's reduced tactical airlift inventory in meeting your 
future requirements?
    General Barclay. There is not a planning figure for resourcing 
brigade combat teams with Direct Support aircraft. The intent is to 
resource a division task force, based on mission analysis, with a 
tailored package of two to four Direct Support aircraft. Based 
partially on a RAND study stating it will require 42-92 aircraft to 
fulfill the Army's time sensitive/mission critical (TS/MC) task, the 
Air Force further assessed the requirement and determined it will take 
48 aircraft to meet the TS/MC requirement. At this time, the Army is 
willing to accept that assessment partially because it coincides with 
our own 2007 assessment of acquiring 54 Joint Cargo Aircraft; 48 for 
missions and six for training.
    Mr. Akin. For each of the fiscal years 2009, 2010, 2011 and to date 
in 2012, what percentage of the total time-sensitive/mission critical 
airlift missions in both combat and training operations have been met 
by Air Force fixed-wing intra-theater airlift aircraft? How many 
missions over those same years has the Army designated ``time-
sensitive/mission critical'' and how many of those total missions have 
been flown by Air Force fixed-wing aircraft?
    General Barclay. a. Even though time sensitive/mission critical 
(TS/MC) is not a new concept, it is an emerging doctrinal term that has 
no formal definition and as a consequence, there is not an established 
metric to track TS/MC requirements. The combatant commander makes his 
own determination on what is TS/MC and based on his assessment of 
current operations, he might decide to reprioritize certain logistics 
commodities. The Army and Air Force are in the process of developing 
how to define/track TS/MC.
    b. Because TS/MC data is not available, we are unable to discern 
how many TS/MC missions the Air Force has supported. Today, when a TS/
MC mission is required, it is being supported by a USAF aircraft, a 
commercially contracted aircraft, or an Army rotary wing aircraft; 
whichever is most readily available at the time.
    Mr. Akin. Given the reduced airlift inventory in both the Air Force 
and the Army, how would you assess the operational risk incurred with 
the Air Force meeting the Army's Direct Support/Missional Critical 
airlift mission in future contingencies and training operations?
    General Barclay. The Air Force believes the risk to the Army is 
minimal because the Air Force is completely committed to supporting the 
time sensitive/mission critical (TS/MC) Direct Support theater airlift 
requirements. Based partially on a RAND study stating it will require 
42-92 aircraft to fulfill the Army's TS/MC task, the Air Force further 
assessed the requirement and determined it will take 48 aircraft to 
meet the TS/MC requirement. At this time, the Army is willing to accept 
that assessment partially because it coincides with our own 2007 
assessment of acquiring 54 Joint Cargo Aircraft; 48 for missions and 
six for training.
    Mr. Akin. In the future, how many Direct Support/Mission Critical 
airlift missions does the Army expect the Air Force to provide?
    General Barclay. Presently, there is not an established planning 
figure on how many missions the Army expects the Air Force to provide. 
It is difficult to apply a number because time sensitive/mission 
critical (TS/MC) is an emerging doctrinal term that has no formal 
definition and as a consequence, there is not an established metric to 
track TS/MC requirements. The combatant commander makes his own 
determination on what is TS/MC and based on his assessment of current 
operations, he might decide to reprioritize certain logistics 
commodities. The Army and Air Force are in the process of developing 
how to define/track TS/MC.
    Mr. Akin. The Army's plans to divest itself of the C-23 Sherpa 
airlift fleet was predicated on the Air Force's procurement of the C-27 
aircraft to support the Army's Direct Support/Mission Critical airlift 
mission. Now that the Air Force plans to divest itself of the C-27, is 
the Army reassessing whether or not you will keep the C-23 Sherpa, and/
or, possibly try to assume the C-27 from the Air Force?
    General Barclay. The Army is continuing with its plan to divest the 
C-23 Sherpa fleet. The C-23 primarily mitigated the requirement for 
time sensitive/mission critical cargo for the Army. The current 
agreement between the Army and Air Force will meet this time sensitive/
mission critical requirement. The C-23 fulfilled an Army cargo 
requirement; the C-27 was conceived to fulfill this requirement 
replacing the C-23. The current agreement with the Air Force is not 
platform or aircraft specific but is based on the same Army cargo 
requirement.
    Mr. Akin. Does the Army have any plans to assume responsibility of 
the C-27 aircraft from the Air Force and field it? If not, why not?
    General Barclay. The Army does not plan to assume the 
responsibility of the C-27J aircraft from the Air Force. Under the 
current agreement between the Army and Air Force, the Air Force will 
provide Direct Support air lift for time sensitive, mission critical 
missions thereby removing the Army's initial requirement for the C-27 
aircraft.
    Mr. Akin. Currently, there are two C-27J aircraft deployed to 
support the Army's direct-support/time-sensitive cargo mission in 
Afghanistan, and the Air Force plans to deploy two more in the April to 
May timeframe. Can you provide the committee an update as to how the 
aircraft in theater are performing their mission and whether or not 
you've gotten any negative feedback from the warfighter's they are 
supporting?
    General Barclay. There has been no negative feedback from theater 
on the current support provided by the Air Force. However, new concepts 
take time to mature and develop. We anticipate this Direct Support 
relationship to continue to improve and become more effective as both 
the Army and Air Force collect lessons learned and continue to review 
the agreement, Tactics, Techniques, and Procedures (TTPs).

    Mr. Akin. In February, Boeing announced that it would close its 
production and maintenance facility in Wichita, Kansas as a cost-
savings measure. What impact does this have on the KC-46 program and 
how do you plan to mitigate any program disruptions? Will any cost 
increases to the KC-46 program occur as a result of this facility 
closure?
    General Bogdan. Boeing is closing the Wichita facility by the end 
of 2013 and moving all KC-46 work to the Puget Sound area. Specific 
functions and capabilities to be moved include the finishing center, 
boom assembly, and KC-46 FAA supplemental type certification (STC). 
Boeing has plans in place to mitigate the loss of key aerial refueling 
engineering, manufacturing, and production expertise resulting from the 
move. Additionally, the movement of STC requires new FAA delegation 
authority to conduct STC. Boeing and the Air Force are working with the 
FAA to obtain this updated STC authority.
    If the transition occurs as Boeing plans, this move should result 
in an overall risk reduction for the KC-46 program. For example, all 
development testing will be consolidated in one location, all 
manufacturing will be in the same area with expertise being co-located, 
and the need for long ferry flights to Wichita to complete aircraft 
assembly is eliminated. Contractually, the movement of KC-46 work from 
Wichita does not impact the competitively negotiated KC-46 business 
deal.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. GRIFFIN
    Mr. Griffin. According to the President's budget proposal for 
fiscal year 2013, the Administration plans to cancel the AMP and 
replace the AMP with a less ambitious, less costly program, commonly 
referred to as ``AMP Lite,'' for modernization of the C-130 fleet, 
including 184 C-130 aircraft. According to General Schwartz, these 
upgrades would likely be similar to those used on the KC-10 refueling 
aircraft and would keep the navigators in our C-130s. The President's 
FY13 budget claims this will save $2.6 billion. However, it is my 
understanding that the $2.6 billion in savings does not include the 
cost of a new program start, current contract termination costs, cost 
of keeping the navigator position, or the life-cycle savings that AMP 
will provide.
    Question: When determining the cost of AMP Lite, did the Air Force 
consider the cost of retaining the navigator position over the life 
cycle of the legacy C-130 fleet? If so, what is the cost? How much will 
the new start effort truly save after considering the termination 
liability, and other life cycle cost savings are removed from the 
solution? What were other criteria for considering the cost of AMP 
Lite?
    General Johns. The Future Year Defense Plan (FYDP), FY13-FY17, cost 
savings from terminating C-130 Avionics Modernization Program (AMP) and 
initiating the ``Optimize Legacy C-130 Communication, Navigation, 
Surveillance/Air Traffic Management (CNS/ATM)'' program is $2.3B. 
Additionally, when adding the ``To Complete'' cost of AMP in the FY12 
PB to what the Air Force has funded in the FY13PB for CNS/ATM, the Air 
Force identified a total cost savings of $3.5B in investment dollars.
    By going with the new Optimize Legacy C-130 CNS/ATM, which retains 
the navigator position, the Air Force took into consideration that we 
would lose the mission personnel ``cost savings'' of $482M in base year 
dollars (reference 31, Dec 2010 C-130 AMP Selected Acquisition Report 
(SAR) to Congress) vice AMP.
    Furthermore, the 2010 SAR identified that there were no other life 
cycle costs savings by continuing with AMP. The SAR identified an 
expected cost increase in both Unit Level Consumption ($513.4M Base 
Year dollars) and Sustaining Support ($157.7M Base Year dollars) for 
AMP modified aircraft.
    Lastly, the termination liability for C-130 AMP is $5.1M.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BARTLETT
    Mr. Bartlett. In General Schwartz's written testimony before the 
full Committee, he stated that the Air Force is divesting the C-27 
aircraft in favor of the ``multi-role'' C-130 because the AF considers 
the C-27 a ``niche'' capability. However, on May 19, 2009, the AF 
verbally testified to this committee that ``our programs reflect their 
commitment to pursuing joint, multi-mission solutions such as the 
procurement of 8 C-27Js in fiscal year 2010.'' Why, does the AF believe 
three years later that the C-27 is no longer a multi-mission capable 
aircraft? Has there been any formal Air Force testing conducted that 
proves the C-27 is no longer a multi-mission aircraft?
    General Johns. Background of Question: In February 2008, the Air 
Force certified to Congress in a letter that the ``Time-sensitive/
mission-critical resupply is crucial to our success as warfighters . . 
. we also believe there are mission sets that may support additional 
procurement of the C-27 . . . [such as] building international 
partnerships around a common airframe; National Guard support of 
Federal Emergency Management agency regions; delivery of Special 
Operations Forces teams and other small unit maneuvers; more efficient 
movement of small payloads in theater, taking convoys off the road; 
precision air drop of bundles and Joint precision Airdrop System 
operations; and, recapitalization of Operational Support Aircraft 
inventories.''
    The C-27J is a capable aircraft that can conduct similar operations 
as the C-130, but on a smaller scale (less range, speed, payload). 
However, our analysis demonstrates that it does so at greater cost. 
Therefore the AF has made the difficult decision to cancel the C-27J 
program and fulfill the Direct Support mission it was designated to 
conduct with the more capable and cost-effective C-130.
    Mr. Bartlett. What are the cost and schedule impacts to the Navy's 
BAMS program from ending and mothballing the USAF Global Hawk Block 30 
program? What are the cost impacts to operating and sustaining the 
remaining variants (Blocks 20 and 40)?
    General Johns. The Air Force must defer to the Navy regarding cost 
and schedule impacts to BAMS due to the divestiture of the Global Hawk 
Block 30. This information is not available within the Air Force.
    The FY13 PB contains the cost required to develop, retrofit and 
sustain the remaining Block 20/40 fleet (does not include BACN-specific 
payload updates and costs, which are funded under OCO). There will be 
no additional infrastructure or spares costs associated with flying 
Block 20/40 aircraft without Block 30 in the program. In order to 
reduce operations and maintenance cost, the Air Force will reduce the 
number of operational sites to coincide with the removal of Block 30 
aircraft operations. Though cost per flying hour will increase due to 
reduced aircraft quantities, reliability and maintenance improvements 
are funded within the Global Hawk budget to further control costs.
    Mr. Bartlett. Our budget crisis demands that we maximize the 
efficiency for every program. At a macro level it is clear that an 
unmanned system can fly longer and further than a manned system. A 
recent CSBA analysis showed in great detail how unmanned systems 
feature \1/3\ the life cycle cost of manned systems. Explain how it is 
in the long-term budgetary and national security interests of our 
nation to abandon an unmanned system that by all accounts is performing 
exceptionally well in theater for a five decade old manned system.
    General Johns. It is accurate that the RQ-4 can fly longer and 
further than the U-2, and in last year's Nunn-McCurdy certification, 
the RQ-4 was found to be $220M less expensive per year to operate than 
the U-2. However, OSD CAPE based this analysis on a High Altitude orbit 
1,200 miles from the launch base. During the analysis done in the FY13 
Budget Review, the launch base for the RQ-4 and U-2 was assumed to be 
from their normal operating locations. Coupled with the fact that the 
cost per flying hour of the RQ-4 and U-2 is roughly equivalent at $32K 
per hour, per information contained in the Air Force Total Ownership 
Costs Database, the RQ-4 did not offer a cost advantage over the U-2 in 
the FY13 Budget Review.
    After the Nunn-McCurdy Review, the DOD Joint Requirements Oversight 
Council reviewed recent adjustments in military strategy and determined 
that conventional high-altitude ISR requirements could be reduced. The 
Air Force further determined the U-2, which remains viable until at 
least 2040, was sufficient to meet those national security requirements 
for high-altitude ISR with this newly reduced requirement.
    Ultimately, continued investment in the RQ-4 Block 30 was not 
prudent given there is no difference in the operating costs between the 
RQ-4 and U-2 when operating from their normal operating locations and 
the U-2 meets the new requirement. This drove the decision to divest 
the RQ-4 Global Hawk Block 30, resulting in a $3.8B savings. Although 
money was saved with the decision to divest Global Hawk Block 30, $1.3B 
was needed to continue to operate and sustain the U-2 through the FYDP. 
This resulted in a net savings to the taxpayer of $2.5B.

    Mr. Bartlett. Our budget crisis demands that we maximize the 
efficiency for every program. At a macro level it is clear that an 
unmanned system can fly longer and further than a manned system. A 
recent CSBA analysis showed in great detail how unmanned systems 
feature \1/3\ the life cycle cost of manned systems. Explain how it is 
in the long-term budgetary and national security interests of our 
nation to abandon an unmanned system that by all accounts is performing 
exceptionally well in theater for a five decade old manned system.
    General Barclay. The United States Air Force is best suited to 
respond to this question.

    Mr. Bartlett. Our budget crisis demands that we maximize the 
efficiency for every program. At a macro level it is clear that an 
unmanned system can fly longer and further than a manned system. A 
recent CSBA analysis showed in great detail how unmanned systems 
feature \1/3\ the life cycle cost of manned systems. Explain how it is 
in the long-term budgetary and national security interests of our 
nation to abandon an unmanned system that by all accounts is performing 
exceptionally well in theater for a five decade old manned system.
    General Bogdan. It is accurate that the RQ-4 can fly longer and 
further than the U-2, and in last year's Nunn-McCurdy certification, 
the RQ-4 was found to be $220M less expensive per year to operate than 
the U-2. However, OSD CAPE based this analysis on a High Altitude orbit 
1,200 miles from the launch base. During the analysis done in the FY13 
Budget Review, the launch base for the RQ-4 and U-2 was assumed to be 
from their normal operating locations. Coupled with the fact that the 
cost per flying hour of the RQ-4 and U-2 is roughly equivalent at $32K 
per hour, per information contained in the Air Force Total Ownership 
Costs Database, the RQ-4 did not offer a cost advantage over the U-2 in 
the FY13 Budget Review.
    After the Nunn-McCurdy Review, the DOD Joint Requirements Oversight 
Council reviewed recent adjustments in military strategy and determined 
that conventional high-altitude ISR requirements could be reduced. The 
Air Force further determined the U-2, which remains viable until at 
least 2040, was sufficient to meet those national security requirements 
for high-altitude ISR with this newly reduced requirement.
    Ultimately, continued investment in the RQ-4 Block 30 was not 
prudent given there is no difference in the operating costs between the 
RQ-4 and U-2 when operating from their normal operating locations and 
the U-2 meets the new requirement. This drove the decision to divest 
the RQ-4 Global Hawk Block 30, resulting in a $3.8B savings. Although 
money was saved with the decision to divest Global Hawk Block 30, $1.3B 
was needed to continue to operate and sustain the U-2 through the FYDP. 
This resulted in a net savings to the taxpayer of $2.5B.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
